<html>
<title> - EXTREMIST MOVEMENTS AND THEIR THREAT TO THE UNITED STATES</title>
<body><pre>[Senate Hearing 106-297]
[From the U.S. Government Printing Office]


                                                        S. Hrg. 106-297


 
        EXTREMIST MOVEMENTS AND THEIR THREAT TO THE UNITED STATES

=======================================================================

                                HEARING

                               BEFORE THE

                    SUBCOMMITTEE ON NEAR EASTERN AND
                          SOUTH ASIAN AFFAIRS

                                 OF THE

                     COMMITTEE ON FOREIGN RELATIONS
                          UNITED STATES SENATE

                       ONE HUNDRED SIXTH CONGRESS

                             FIRST SESSION

                               __________

                            NOVEMBER 2, 1999

                               __________

       Printed for the use of the Committee on Foreign Relations

                               <snowflake>

 Available via the World Wide Web: http://www.access.gpo.gov/congress/senate


                                <snowflake>


                      U.S. GOVERNMENT PRINTING OFFICE
 61-869 CC                   WASHINGTON : 2000
------------------------------------------------------------------------------
                   For sale by the U.S. Government Printing Office
 Superintendent of Documents, Congressional Sales Office, Washington, DC 20402




                     COMMITTEE ON FOREIGN RELATIONS

                 JESSE HELMS, North Carolina, Chairman
RICHARD G. LUGAR, Indiana            JOSEPH R. BIDEN, Jr., Delaware
PAUL COVERDELL, Georgia              PAUL S. SARBANES, Maryland
CHUCK HAGEL, Nebraska                CHRISTOPHER J. DODD, Connecticut
GORDON H. SMITH, Oregon              JOHN F. KERRY, Massachusetts
ROD GRAMS, Minnesota                 RUSSELL D. FEINGOLD, Wisconsin
SAM BROWNBACK, Kansas                PAUL D. WELLSTONE, Minnesota
CRAIG THOMAS, Wyoming                BARBARA BOXER, California
JOHN ASHCROFT, Missouri              ROBERT G. TORRICELLI, New Jersey
BILL FRIST, Tennessee
                   Stephen E. Biegun, Staff Director
                 Edwin K. Hall, Minority Staff Director

                                 ------                                

          SUBCOMMITTEE ON NEAR EASTERN AND SOUTH ASIAN AFFAIRS

                    SAM BROWNBACK, Kansas, Chairman
JOHN ASHCROFT, Missouri              PAUL D. WELLSTONE, Minnesota
GORDON H. SMITH, Oregon              ROBERT G. TORRICELLI, New Jersey
ROD GRAMS, Minnesota                 PAUL S. SARBANES, Maryland
CRAIG THOMAS, Wyoming                CHRISTOPHER J. DODD, Connecticut

                                  (ii)



                            C O N T E N T S

                              ----------                              
                                                                   Page

Bearden, Milton, retired CIA officer, former chief of station in 
  Sudan and Pakistan.............................................    23
    Prepared statement of........................................    24
Ijaz, Mansoor, managing partner, Crescent Equity Partners, LLC, 
  New York, NY...................................................    18
    Prepared statement of........................................    21
Krepon, Michael, president, Henry L. Stimson Center, Washington, 
  DC.............................................................    31
    Prepared statement of........................................    32
Sheehan, Hon. Michael A., Ambassador at Large and Coordinator for 
  Counterterrorism, Department of State..........................     3
    Prepared statement of........................................     8
Starr, Dr. S. Frederick, chairman, Central Asia-Caucasus 
  Institute, Johns Hopkins University/ASIS, Washington, DC.......    27
    Prepared statement of........................................    28

                                 (iii)



       EXTREMIST MOVEMENTS AND THEIR THREAT TO THE UNITED STATES

                              ----------                              


                       TUESDAY, NOVEMBER 2, 1999

                           U.S. Senate,    
               Subcommittee on Near Eastern
                           and South Asian Affairs,
                            Committee on Foreign Relations,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 3:15 p.m., in 
room SD-419, Dirksen Senate Office Building, Hon. Sam Brownback 
(chairman of the subcommittee) presiding.
    Present: Senator Brownback.
    Senator Brownback. I call the hearing to order. I welcome 
everybody here to the first in what I hope will be a number of 
hearings on the problem of extremism and its threat to the 
United States.
    We have two panels, and excellent panels. On our first 
panel, the Hon. Michael Sheehan, Ambassador at Large and 
Coordinator for Counterterrorism at the Department of State. 
Welcome, Ambassador. We are delighted to have you here.
    On our second panel will be Mr. Mansoor Ijaz, managing 
partner, Crescent Equity Partners; Mr. Milt Bearden, retired 
CIA officer and former CIA Chief of Station in Sudan and 
Pakistan; and Dr. S. Frederick Starr, chairman of the Central 
Asia-Caucasus Institute at Johns Hopkins University. All three 
are excellent in their knowledge of this very important topic 
of key current and future importance to the United States.
    It is clear that the United States needs a coherent and 
comprehensive policy to deal with extremism. In addition to 
facing the existing terrorist threat, we need to be looking 
ahead and thinking about how to turn around what looks like a 
steeper and steeper slide into anti-Western extremism in 
certain parts of the world. I look forward to hearing from our 
panelists about the sources of this extremism, what keeps it 
alive, where we are now, and what policies the United States 
should be pursuing to deal with this threat.
    There is a certain conventional wisdom gaining some 
currency among experts that state sponsorship of terrorism has 
disappeared and that instead the U.S. faces some loosely knit 
independent actors who are not beholding or answerable to any 
foreign government. Thus, we have a Saudi national, who once 
lived in the Sudan, based out of Afghanistan, mounting 
terrorist attacks on U.S. installations in Africa. Now, who is 
to blame?
    It is my firm belief that while we may not see states 
specifically planning and orchestrating terrorist acts on the 
United States, countries such as Afghanistan, Iran, Iraq, 
Syria, and The Sudan can all be counted as state sponsors of 
terrorism because they provide safe haven to terrorists. They 
allow the operation of terrorist training camps. They allow 
terrorists access to funds, and may well facilitate their 
travel around the world.
    Then there is a second tier of states. Let us refer to them 
as aiders and abetters. These are states which are otherwise 
friendly to the United States, but are unwilling or unable to 
take the necessary steps to crack down on members of their 
government or on their citizens who are providing financial and 
logistical support to terrorist groups. Without such states, it 
would be infinitely more difficult for terrorists such as Osama 
bin Laden to operate.
    Take, for example, the case of Saudi Arabia. If last week's 
USA Today article is accurate, significant funds are being 
funnelled to bin Laden from private citizens in Saudi Arabia. 
The Saudis are good friends of the United States. But 
permitting this sort of thing to happen is absolutely 
unacceptable. The Saudis have a responsibility to exert more 
financial control. We undertook to work with Saudi Arabia to 
protect their interest when they were threatened, but this is 
certainly a two-way street.
    I am also worried about what appears to be a tacit compact 
between the Clinton administration and the Saudis not to finger 
the Iranians for the Khobar Towers bombing. There seems to be a 
tendency to play down and even to whitewash the involvement of 
certain states with terrorist groups, such as Syria, Lebanon, 
Iran, and others. And another case in point is obviously Iraq.
    Ambassador Sheehan, I have seen reports that bin Laden has 
either been in Iraq or is contemplating setting up operations 
in Iraq. And I hope you will address that today in your 
testimony.
    I must confess that I continue to be disappointed in the 
administration's failure to match action to rhetoric in the 
case of Iraq. We are not moving nearly aggressively enough to 
remove Saddam Hussein. And as a side note on that, on Friday, 
Senator Bob Kerrey and myself were both in New York to meet 
with the Iraqi National Congress, as well as Congressman 
Gilman, the chairman of the International Relations Committee 
on the House side. It looked to a number of us that this was a 
very promising get-together of groups that have had difficulty 
cooperating, and we need to be as aggressive as possible to 
work with them to remove Saddam Hussein from power.
    In a nutshell, the Iraq question, the Iran question, and 
Osama bin Laden are challenges to the United States leadership 
and are symptoms of a phenomena with which we must deal. As a 
Nation, we cannot afford to tiptoe around this problem. We do 
need a strong and a comprehensive policy for dealing with this 
threat.
    Ambassador Sheehan, I certainly welcome you to the 
committee. I look forward to hearing your testimony. I have a 
number of questions for you and the administration about what 
we are doing to pull together and to carry off a comprehensive 
policy on dealing with extremism and its difficulty that it 
presents to us both now and clearly in the future.
    With that, welcome to the committee, and the floor is 
yours.

 STATEMENT OF HON. MICHAEL A. SHEEHAN, AMBASSADOR AT LARGE AND 
     COORDINATOR FOR COUNTERTERRORISM, DEPARTMENT OF STATE

    Ambassador Sheehan. Thank you, Senator, Mr. Chairman, 
members of the committee. I welcome very much the invitation to 
speak with you today about terrorism in the Middle East and 
South Asia, as well as our efforts to combat it.
    With your permission, I would like to submit my full 
statement for the record.
    Senator Brownback. Without objection.
    Ambassador Sheehan. And I will read a short summary, it 
should keep to about 10 minutes or so, of that statement at 
this time.
    We have witnessed in the Middle East and South Asia 
examples of all the detrimental effects of terrorism. Beyond 
immediate results of terrorism, such as a bomb or a killing, 
the tragic loss of life and property damage, terrorism can also 
take a terrible toll on peace processes and it can inflame 
difficult regional and local conflicts. In addition to the 
material damage caused by a bomb, terrorist activities can also 
have a long-term economic impact in the region. Foreign and 
local investment can be reduced dramatically in the wake of 
terrorist activity. And a tourist economy, such as Egypt's, can 
be shattered.
    In recent years, the locus of terrorism directed against 
the United States has shifted somewhat, by my analysis. In the 
past decades, the Middle East has been the center of activity 
for some of the world's most dangerous anti-U.S. terrorist 
groups and some of the most brazen state sponsors of terrorism. 
No one in the State Department, least of all my office, nor I 
personally, will forget the 241 marines killed in Beirut, the 
Americans killed in Lebanon in the embassy bombings, the TWA 
847 hijacking, the hostages of the mid-eighties, 270 passengers 
who perished in Pan Am 103, or the 19 servicemen who died at 
Khobar Towers in Dhahran in 1996.
    I deal with the families of many of these victims, and it 
is my responsibility to see that the perpetrators of these 
terrorist acts be brought to justice. But the center of anti-
American terrorism, by my analysis, has shifted eastward since 
the 1980's and early nineties, from Libya, Syria and Lebanon to 
South Asia. Our attention is increasingly focused on Osama bin 
Laden and the alliance of brutes operating out of Afghanistan, 
with the acquiescence of the country's de facto rulers, the 
Taliban.
    These Afghan based terrorist conglomerates brought about 
the bombings of our embassies in Nairobi and Dar es Salaam in 
August 1998. I will discuss this in more detail later, but I 
will start with a brief overview of terrorism in the Middle 
East. It is important to note that we have brought progress 
about reducing terrorism in the Middle East. It certainly has 
not ended. It is still a major area of concern for me. But I 
think it is important to recognize the progress that we have 
made over the last 20 years, to learn from what has worked, so 
that we can continue to apply the lessons of those policies 
that have worked in the future.
    During the late seventies and eighties, the Governments of 
Syria, Libya and Iran played a prominent role in supporting and 
directly promoting the activities of terrorist groups, as well 
as carrying out terrorist attacks themselves, using their state 
security or intelligence personnel. Today, following years of 
international pressure and sanctions, blatant state sponsorship 
of terrorism as we saw in the seventies and eighties has 
declined.
    Make no mistake about it, Senator Brownback, I do not mean 
to suggest that we no longer have problems with Middle Eastern 
governments, particularly Iran. But also Syria, Libya and Iraq 
remain on our list of state sponsors because they provide safe 
haven and material support to terrorist groups. But their 
direct sponsorship of terrorist acts has diminished. And that 
will have implications for our policy, which I hope we will 
have time to discuss.
    Governments are taking more decisive action against 
terrorists. Recent examples include the Jordanian Government's 
crackdown on Hamas, the counterterrorism actions of the 
Palestinian Authority, and Egypt's success in curbing its own 
domestic terrorism. We have established effective 
counterterrorism cooperation with more countries than ever 
before. This includes dramatically improved intelligence 
sharing and law enforcement cooperation across the board.
    My office hosted a multilateral conference this past summer 
that brought together senior counterterrorism officials from 
over 20 countries, mostly from the Middle East and South Asia. 
We are having greater success than in the past in persuading 
governments to arrest terrorist fugitives and render them to 
the United States for prosecution. A number of governments have 
cooperated with U.S. authorities in handing over individuals 
indicted in U.S. courts for involvement of the two 1998 
bombings of our embassies.
    Notwithstanding these successes, our fight against 
terrorism in the Middle East has a very long way to go. Some 
groups, such as Hamas, Hezbollah, and the PFLPGC continue 
actively to plan terrorist attacks aimed at derailing the 
Middle East peace process. Iran remains an active state sponsor 
of terrorism, giving material support to a wide range of 
terrorist groups. And particularly, two Iranian Government 
organs, the Revolutionary Guard Corps and the Ministry of 
Intelligence Security, have institutionalized the use of 
terrorism as an instrument of policy over the past two decades 
and still do so today.
    We continue to investigate the 1996 bombings at Khobar 
Towers in Saudi Arabia, in which 19 U.S. servicemen died. We 
will pursue that investigation wherever it leads, including 
following up on information suggesting that the Iranian 
officials played a part in planning or facilitating the attack. 
I will also get back to that issue as well, Senator Brownback. 
I know it is of interest to you.
    We have ongoing concerns about Syria, Libya and Iraq. In 
the case of Libya, a decade of international sanctions and 
isolation has clearly had an effect on Qaddafi's policy. Libya 
no longer plays host to the most violent and deadly terrorist 
groups in the Middle East as it did a decade ago. And this is a 
victory for the past several administrations that have a very 
committed policy on Libyan sponsored terrorism.
    Last April, following years of U.S.-led pressure, Libya 
turned over two individuals to be tried in The Hague for 
carrying out the Pan Am 103 bombing, 11 years after that 
December 1988 tragedy. This action, while important from our 
perspective, does not end our designation of Libya as a state 
sponsor of terrorism. That can only happen when we have clear 
evidence that Qaddafi has fully cooperated with the Pan Am 103 
trial, which we will hope will start in February of next year, 
as well as fulfilling all the other obligations under the 
United Nations Security Council resolutions, and renounce the 
use of terrorism and sever the remaining ties to any terrorist 
groups.
    We are confronting new problems and new challenges in South 
Asia. Osama bin Laden's al-Qaida network is a prime example of 
an alarming trend in terrorism, that you referred to earlier in 
your remarks, against us that are from loosely knit networks 
with fewer direct ties to governments. Their organization is 
very flat, less hierarchical than we have see in previous 
years. Bin Laden's organization operates very much on its own, 
without having to depend on a state sponsor for material 
support, though he certainly gets sanctuary from the Taliban.
    He possesses financial means and raises funds through 
narcotics trafficking, legitimate front companies and local 
financial support. Bin Laden has created a truly transnational 
terrorist enterprise, drawing in recruits from areas across 
Asia, Africa and Europe, as well as the Middle East, linked 
only by hatred of the United States and those governments with 
which we have friendly relations. Perhaps most ominously, bin 
Laden has avowed his intention to obtain weapons of mass 
destruction. And we know he is actively engaged in pursuing 
that endeavor.
    Afghanistan has become a haven for terrorist groups. In 
addition to bin Laden and al-Qaida, the Taliban plays host to 
members of the Egyptian Islamic Jihad, the Algerian Armed 
Islamic Group, Kashmiri separatists, and militant organizations 
from Central Asia. We have imposed U.S. sanctions on the 
Taliban and have worked to bring about international sanctions, 
approved by the United Nations Security Council last month. Yet 
the Taliban persist in giving refuge to bin Laden and his 
associates. The Taliban is not overly hostile to the United 
States, but its tolerance of these groups obstruct our 
counterterrorism efforts and are clearly unacceptable.
    We have urged Pakistan, as well, to use its influence to 
persuade the Taliban to render bin Laden to a country where he 
can be brought to justice. We have repeatedly asked Islamabad 
to end support for terrorist training in Afghanistan, to 
interdict travel of militants to and from Afghan camps, to 
prevent militant groups from acquiring weapons, and to block 
financial and logistical support to camps in Afghanistan.
    Within Pakistan, there are numerous Kashmiri separatist 
groups and sectarian groups involved in terrorism, which use 
Pakistan as a base. We have continuing reports of Pakistani 
material support for some of these militants. One such group, 
the HUM, the Harakat ul-Mujahedin, was involved in the still 
unresolved July 1995 kidnapping of four Westerners, including 
one American, in Indian-controlled Kashmir. In February 1998, 
the HUM leader consigned bin Laden's anti-American fatwah, and 
openly promised to kill Americans everywhere in the world.
    One of our most effective tools is the Anti-Terrorism and 
Effective Death Penalty Act of 1996, a creation of the U.S. 
Congress and an instrument that is extremely important to my 
office, and through which this authorization we designated 28 
groups as foreign terrorist organizations, or FTO's, half of 
which are from the Middle East or South Asia. We also continue 
to label seven countries, including the four Middle Eastern 
governments I mentioned earlier, as state sponsors of terrorism 
under U.S. law.
    We carefully review these lists to determine if the groups 
and countries persist in their support for terrorism. Both of 
these documents, the foreign terrorist organizations and state 
sponsorship, are meant to be living lists which can change over 
time as the behavior of groups and governments changes. If they 
end terrorist activities, we will consider removing them from 
the list.
    In my prepared statement, I describe in detail the criteria 
for keeping a group on the FTO, the foreign terrorist 
organization, list or a government on the state sponsor list. 
It is not just a matter of ordering and carrying out direct 
terrorist attacks. We are equally focused on preparations for 
terrorism, in which we include activities such as recruiting, 
training, funding, equipping, planning, and providing safe 
haven to terrorists. We have strong evidence of the direct 
involvement in terrorism over the past 2 years of groups such 
as Hamas, Hezbollah, the Palestinian Islamic Jihan, the 
Egyptian Islamic Group, the PFLPGC, the Algerian Armed Islamic 
Group, and the Pakistani-based HUM. These are the most active 
of the groups.
    Then there are a number of groups which have not carried 
out overt terrorist acts in recent years but continue to 
recruit, train, equip, and plan for terrorism. These groups 
include the Abu Nidal Organization, the PFLP, the PLF--the Abu 
Abbas faction, and the two Jewish extremist groups, Kach and 
Kahane Chai.
    In conclusion, I want to reaffirm that the central element 
of our counterterrorism efforts remains a combination of 
political will and diplomatic action. We can combat terrorism 
only if we persuade other governments to work with us. 
Intelligence sharing, law enforcement cooperation and armed 
force are important. But they must be integrated into an 
overall political/diplomatic strategy, exactly as you have 
indicated in your opening remarks.
    It requires a long-term, sustained effort, however, and 
requires not just a firm commitment from our leaders, but we 
also need some resources. It is vital that we help friendly 
governments acquire counterterrorism skills. Part of this 
effort is to provide training through the State Department's 
anti-terrorism assistance program. This training has courses 
such as bomb detection, airport security, hostage negotiation, 
and crisis management, that helps protect Americans overseas.
    And as you alluded to in your remarks, Senator, we deal 
often with countries that are friendly but not have as strong a 
counterterrorism policy as we wish. We use our anti-terrorism 
funding and those programs to work with those countries to 
increase their capability, as well as, most importantly, their 
will to go after these terrorist organizations that may be 
operating within their soil.
    Anti-terrorism assistance is the currency that a U.S. 
Ambassador can use to influence a foreign government on the 
need for firm counterterrorism action. Without it, our 
representatives often have nothing to offer in the way to 
enlist the foreign governments to help us do such things as 
protect the airports, their borders and other such activities.
    Fighting terrorist fundraisers and bomb makers also takes 
some money. I do want to note that the foreign operations bill 
cut the anti-terrorism programs and terrorist interdiction 
programs by 36 percent this year. And this is unconscionable in 
my opinion. These cuts make it impossible for us to initiate 
the training that we have been planning after the embassy 
bombings last year, as well as additional training for some of 
the other areas in the world where this type of activity is 
spreading.
    International cooperation, anti-terrorism training, action 
to counter terrorist fundraising, advances in explosives 
detection equipment, exercises that deal with crises, and 
rewards for information--these are not abstract ideas or 
giveaways of foreign aid. They are good investments in the 
protection for American citizens and interests.
    Mr. Chairman, whenever there is a major terrorist incident, 
everyone demands that we do something. But, weeks later, when 
the TV images fade away, it is very difficult the next year to 
get the funding for the programs that we need to implement. As 
a former special forces operator and officer in the 
counterterrorism business, I realize it is often easier to get 
funding for other types of organizations, such as the CIA, FBI, 
Defense, even HHS has a growing counterterrorism budget, even 
some American colleges and universities have an increasing 
counterterrorism budget. But it is difficult to see that as 
these budgets are increasing that we were slashed by 36 
percent.
    And as you indicated, sir, in your remarks, really, the 
work of counterterrorism policy over the long term is one of 
political will. A country must have the political will to go 
after counterterrorism. It is the job of the State Department 
to work with these countries to enhance their political will. 
It is a long slog of diplomatic action and political pressure 
that really brings about international cooperation and changes 
the behavior in groups and regimes.
    I know that you personally, your committee, and the members 
of your staff have been very, very supportive of our efforts. 
And we are very grateful for that. I hope that you will be able 
to help us get the funding we need, and continue to keep 
pressure on those countries and organizations that are involved 
in these types of activity.
    The bottom line, however, is the State Department will need 
some resources to do that. And we will need a continued, 
focused effort to bring the political pressure to bear where it 
needs to be done. And we are committed to do that and to make 
sure that Americans who live and travel overseas will continue 
to be protected and to diminish risk from whoever might carry 
out a grudge against them.
    Thank you for your time, Mr. Chairman, and for the 
opportunity to speak here this afternoon.
    [The prepared statement of Ambassador Sheehan follows:]

          Prepared Statement of Ambassador Michael A. Sheehan

    Mr. Chairman, members of the Committee, I welcome the invitation to 
come speak with you today about terrorism in the Middle East and South 
Asia, as well as our efforts to combat it.
    We have witnessed in the Middle East and South Asia examples of all 
the detrimental effects of terrorism. Beyond its immediate results--a 
tragic loss of life and property damage--terrorism can often take a 
terrible toll on political and economic stability. It enflames regional 
conflicts and brings about a vicious circle of retaliatory violence. It 
can often undermine--or at a minimum stall--important peace processes 
by complicating the task of reconciliation between hostile parties. It 
frequently puts pressure on governments to react in a heavy-handed 
manner. On the economic side, it inhibits tourism and stifles foreign 
and domestic investment.
    In recent years, we have observed a shift in the locus of terrorism 
directed against us. In past decades, the Middle East has been the 
center of activity for some of the world's most dangerous anti-U.S. 
terrorist groups and for some of the most brazen state sponsors of 
terrorism. No one in the State Department--least of all my office nor I 
personally--will forget the 241 U.S. Marines killed at Beirut airport 
in 1983, the Americans killed in Lebanon in the embassy bombings, the 
TWA 847 hijacking, and hostage-takings in the mid-1980's, the 270 
passengers who perished in the Pan Am 103 bombing in 1988, or the 19 
U.S. servicemen who died at Khobar Towers in Dhahran in 1996. I deal 
with the families of many of these victims, and it is my responsibility 
to see the perpetrators of these terrorist acts brought to justice. For 
this reason, I think it is fair to say that my office devotes special 
attention to the Middle East.
    But the center of anti-American terrorism has moved eastward, from 
Libya, Syria, and Lebanon to South Asia. As direct involvement in 
terrorism by most Middle Eastern state sponsors and groups has 
declined, our attention has increasingly focused on Usama bin Ladin and 
the alliance of groups operating out of Afghanistan with the 
acquiescence of the country's de facto rulers, the Taliban. This 
Afghan-based terrorist conglomerate brought about the bombings of our 
embassies in Nairobi and Dar es Salaam in August 1998. I will discuss 
this in more detail later; I'll start with an overview of the Middle 
East.
                  signs of progress in the middle east
    It is important to note the progress we have brought about in 
reducing terrorism in the Middle East. State sponsorship of Middle 
Eastern terrorism has declined. During the 1970's and 1980's, the 
governments of Syria, Libya, and Iran played a prominent role in 
supporting and directing the activities of terrorist groups, as well as 
carrying out terrorist attacks themselves using state security or 
intelligence personnel. These state sponsors routinely used terror as 
an instrument of state policy to attack their opponents, both foreign 
and domestic, and to put pressure on their neighbors.
    Today, following years of more coordinated, generally U.S.-led 
international pressure and sanctions, governments realize they can no 
longer blatantly support terrorist groups, plan terrorist attacks, and 
harbor criminals with impunity. Make no mistake--I do not mean to 
suggest we no longer have problems with Middle Eastern governments--
Iran remains an active state sponsor, and Syria, Libya, and Iraq remain 
on our list because they provide safehaven and material support to 
terrorist groups--but their direct sponsorship of terrorist acts has 
diminished.
    Governments are taking more decisive action against terrorists. For 
example, just last month, the Jordanian government closed Hamas offices 
and clamped down on Hamas activities in the kingdom. The Palestinian 
Authority has mounted counterterrorist operations designed to undermine 
the capabilities of Hamas and the Palestinian Islamic Jihad to use 
terrorism to disrupt the peace process. Egypt has scored great 
successes in curbing domestic terrorism. Many other countries are 
taking steps to prevent terrorists--including those claiming religion 
to justify their violence--from using their territory for their 
activities.
                       international cooperation
    In the Middle East and South Asia, we have established more 
effective counterterrorist cooperation with more countries than ever 
before. In addition to our longstanding relationship with Israel, 
Egypt, and Jordan on counterterrorism, we are now working these issues 
on a regular basis with Morocco, Tunisia, Saudi Arabia, and a number of 
Gulf states. I recently traveled to India and laid the groundwork for 
expanded cooperation with New Delhi in fighting terrorism.
    We have dramatically improved bilateral and multilateral 
intelligence-sharing and law-enforcement cooperation across the board, 
and in some cases have held joint military exercises focused on 
counter-terrorism. My office hosted a multilateral conference this past 
summer that brought together senior counter-terrorist officials from 
more than 20 countries, mostly from the Middle East and South Asia. We 
are having greater success than in the past in persuading governments 
to arrest terrorist fugitives and render them to the United States for 
prosecution. A number of governments have cooperated with U.S. 
authorities in handing over individuals indicted in U.S. courts for 
involvement in the two 1998 embassy bombings. The latest example was 
South Africa, which just last month turned over to U.S. custody a 
suspect in the Dar es Salaam bombing.
    Notwithstanding successes in many areas, our fight against 
terrorism in the Middle East and South Asia has a long way to go. Some 
Middle Eastern groups, such as Hamas, Palestinian Islamic Jihad, and 
Hizballah, continue actively to plan terrorist attacks aimed at 
derailing the Middle East peace process. Iran, which I will discuss in 
more detail shortly, remains the one active state sponsor of terrorism.
                      new challenges in south asia
    But we are confronting new problems and new challenges in South 
Asia--Usama bin Ladin's al-Qa'ida network is a prime example. Today's 
terrorist threat comes primarily from groups and loosely-knit networks 
with fewer ties to governments. Bin Ladin's organization operates on 
its own, without having to depend on a state sponsor for material 
support. He possesses financial resources and means of raising funds--
often through narcotrafficking, legitimate ``front'' companies, and 
local financial support. Today's non-state terrorists benefit from the 
globalization of communication, using e-mail and internet websites to 
spread their message, recruit new members, raise funds, and connect 
elements scattered around the world.
    Bin Ladin and al-Qa'ida represent an alarming trend in terrorism 
directed against us. Bin Ladin has created a truly trans-national 
terrorist enterprise, drawing on recruits from areas across Asia, 
Africa, and Europe, as well as the Middle East. Bin Ladin's alliance 
draws together extremist groups from different regions, linked only by 
hatred of the United States and those governments with which we have 
friendly relations. Perhaps most ominously, bin Ladin has avowed his 
intention to obtain weapons of mass destruction.
    Afghanistan has become a new safehaven for terrorist groups. In 
addition to bin Ladin and al-Qa'ida, the Taliban play host to members 
of the Egyptian Islamic Jihad, the Algerian Armed Islamic group, 
Kashmiri separatists, and a number of militant organizations from 
central Asia, including terrorists from Uzbekistan and Tajikistan. We 
have imposed U.S. sanctions on the Taliban and have worked hard to 
bring about the international sanctions approved by the U.N. Security 
Council last month. Yet the Taliban stubbornly persist in giving refuge 
to Usama bin Ladin and his associates. We have urged Pakistan to use 
its influence to persuade the Taliban to render bin Ladin to a country 
where he can be brought to justice, and we will persist in this effort.
    Within the territory of Pakistan, there are numerous Kashmiri 
separatist groups and sectarian groups involved in terrorism which use 
Pakistan as a base. Pakistan has frequently acknowledged what it calls 
``moral and diplomatic support'' for militants in Kashmir who employ 
violence and terrorism against Indian interests. We have continuing 
reports of Pakistani material support for some of these militants. One 
such group, the Harakat ul-Mujahidin (HUM), was involved in the still-
unresolved July 1995 kidnapping of four westerners, including one 
American, in Indian-controlled Kashmir. In February 1998, the HUM's 
leader co-signed bin Ladin's anti-American fatwa. The HUM has openly 
promised to kill Americans ``everywhere in the world.'' In addition, 
the HUM cooperates with bin Ladin and receives his assistance in 
maintaining its training facilities in Afghanistan. The HUM is also 
tied to the Lashkar-i-Jhangvi, a militant sectarian group believed 
responsible for the attempted assassination of then-Prime Minister 
Sharif in January 1999. Other groups, such as the Lashkar-i-Taiba, the 
Harakat ul-Jihad-i-Islami, and the Hizbul Mujahideen, operate freely in 
Pakistan and support terrorist attacks in Kashmir.
    The Taliban leadership is not overtly hostile to the United States, 
but its actions and its tolerance of terrorist groups seriously 
obstruct our counterterrorist efforts. As far as Pakistan is concerned, 
we have repeatedly asked Islamabad to end support for terrorist 
training in Afghanistan, to interdict travel of militants to and from 
camps in Afghanistan, to prevent militant groups from acquiring 
weapons, and to block financial and logistical support to camps in 
Afghanistan. We have also urged Islamabad to close certain madrassas, 
or Islamic schools, that actually serve as conduits for terrorism.
          u.s. designation of foreign terrorist organizations
    Under the Antiterrorism and Effective Death Penalty Act of 1996, we 
designate 28 groups as ``foreign terrorist organizations'' (FTO's), 
almost half of which are from the Middle East or South Asia. We also 
continue to label seven countries, including four Middle Eastern 
governments, as state sponsors of terrorism under U.S. law. We keep a 
careful eye on these FTO's and on the key state sponsors to determine--
through a painstaking review process--if they are continuing their 
support for terrorism. Both the FTO list and the state sponsors list 
are meant to be ``living'' lists, which can change over time as the 
behavior of groups and governments changes. If a group or country 
ceases its terrorist activity, we will give serious consideration to 
removing it from the list. We want to give them an incentive to mend 
their ways.
    There is a misconception, however, about the kinds of terrorist 
activity that keep a group on the FTO list or government on the state-
sponsors list. It is not just a matter of ordering or carrying out a 
direct terrorist attack. We are equally focused on preparations for 
terrorism, in which we include activities such as recruiting, training, 
funding, equipping, planning, and providing safehaven to terrorists.
    In the case of many of the groups which we have just redesignated 
as foreign terrorist organizations--as well as most of the state 
sponsors--we do not have evidence they carried out direct terrorist 
attacks over the past two years. But we nonetheless consider them 
guilty of ongoing terrorist activity because they continued to be 
involved in the things I mentioned earlier: recruiting, training, 
funding, equipping, planning, and providing safehaven. We will only 
consider removing a group from the FTO list, or a government from the 
state-sponsors list, when we are convinced all such activities have 
stopped.
    In the case of the Middle East and South Asia, we have strong 
evidence of the direct involvement in terrorist attacks over the past 
two years of groups such as Hamas, Hizballah, the Palestinian Islamic 
Jihad, the Egyptian Islamic Jihad, Egyptian Islamic group, the PFLP-GC, 
the Algerian Armed Islamic group, the Pakistan-based Harakat ul-
Mujahideen, and the Sri Lankan Tamil Tigers, also known as the LTTE. 
These groups are a long way from being considered for removal from the 
FTO list.
    Then, there are a number of groups which have not carried out an 
overt terrorist act in recent years but continue to recruit, train, 
equip, and plan for terrorism. These groups include the Abu Nidal 
organization, the PFLP, the PLF (Abu Abbas faction), and the two Jewish 
extremist groups, Kach and Kahane Chai. Any of these groups could end 
all activities in preparation for possible terrorist acts and 
eventually qualify for removal from the FTO list.
    We designate foreign terrorist organizations not to develop a 
``black list'' for its own sake, but to curb their funding. We urge 
other governments to take similar steps. As Congress stated in the 
Antiterrorism and Effective Death Penalty Act, ``foreign organizations 
that engage in terrorist activity are so tainted by their criminal 
conduct that any contribution to such an organization facilitates that 
conduct.'' We encourage other governments to tighten their laws and 
regulations, and we are developing a training program to help them 
identify and block terrorist money flows.
                             state sponsors
    Now turning to state sponsors, four of the seven state sponsors on 
our list are Middle Eastern states--Libya, Syria, Iran, and Iraq. 
Although more reluctant today to sponsor terrorist attacks directly, 
they continue to give safehaven and support to terrorist groups, 
individuals, and activities.
First, Iran
    Iran remains a leading state sponsor of terrorism. CIA Director 
Tenet affirmed before Congress earlier this year that ``hardliners 
continue to view terrorism as a legitimate tool of Iranian policy, and 
they still control the institutions that can implement it.'' As noted 
in this year's Patterns of Global Terrorism--the State Department's 
primary annual publication on terrorism--Iran continues to be involved 
in a range of terrorist activities. These include providing material 
support and safehaven to some of the most lethal terrorist groups in 
the Middle East, notably Hizballah, Hamas, and the PIJ. Iranian 
assistance has taken the form of financing, equiping, offering training 
locations, and offering refuge from extradition. In the case of 
Hizballah and Hamas, Iranian support totals tens of millions of dollars 
in direct subsidies each year. Tehran also continues to target Iranian 
dissidents abroad.
    In particular, two Iranian government organs, the Revolutionary 
Guard Corps and the Ministry of Intelligence and Security, have 
institutionalized the use of terrorism as an instrument of policy over 
the past two decades. These two government organs have longstanding 
ties to the terrorist groups I mentioned earlier, among others, and 
they appear determined to maintain these relationships regardless of 
statements to the contrary from some of Iran's political leaders.
    We continue to investigate the 1996 bombing at Khobar Towers in 
Saudi Arabia, in which 19 U.S. servicemen died; We will pursue that 
investigation wherever it leads, including following up on information 
suggesting that some Iranian officials might have played a part in 
planning or facilitating the attack.
    Iran's support for terrorism activity stands in contrast to other 
countries in the region, including Syria, which is telling these groups 
to end ``military'' activity. Although we have repeatedly assured the 
Iranians that we have no preconditions for beginning dialogue, we have 
also made it clear that there cannot be a lifting of U.S. sanctions or 
an improvement in relations until Iran takes meaningful steps to end 
its support for terrorism and cooperate in the fight against terrorism.
Syria
    International sanctions in the 1980's, following a 1986 Syrian-
directed attempt to bomb an El Al flight, had a dramatic effect on 
Syrian actions. Syrian officials have not been directly linked to a 
specific terrorist attack in this decade. Nonetheless, Syria continues 
to provide support and safehaven to a number of key terrorist groups, 
many of which have offices in Damascus and training facilities on 
Syrian soil and in Syrian-controlled areas of the Bekaa valley in 
Lebanon. These groups include Hamas, the Palestinian Islamic Jihad, and 
the PFLP-GC.
    We recognize that Syria's role in sponsoring Middle Eastern 
terrorist groups has substantially diminished by comparison with its 
involvement in terrorism 20 years ago. We also note the recent Syrian 
moves to put pressure on various Palestinian groups to move from armed 
struggle to political action. But, until Syria ceases to give safehaven 
to these groups, it will remain on the state-sponsors list.
Iraq
    Iraq's capabilities to cause trouble through international 
terrorism have been seriously eroded, largely through international 
cooperation. Nonetheless, Saddam Hussein retains a willingness to 
attack us by terrorist means--and the connections to Middle Eastern 
terrorist groups that could lead to such acts. We are concerned over 
the fact that Abu Nidal relocated himself and his terrorist 
organization to Iraq over the past year. Iraq also continues to host 
and arm the Iranian Peoples' Mujahedin, a terrorist group with American 
blood on its hands. Thus, we are not looking at removing Iraq from the 
list any time soon.
Finally, Libya
    In the mid-80's, Libya hosted and supported some of the most 
violent and deadly terrorist groups, including the Abu Nidal 
organization (ANO), which operated terrorist training camps on Libyan 
soil. A decade of international sanctions and isolation, however, has 
clearly had an effect on Libyan policy. It appears they have expelled 
the ANO, and we no longer have evidence that terrorist camps still 
exist in Libya. On April 5th, following years of U.S.-led pressure, 
Libya turned over two individuals who will be tried in the Hague for 
carrying out the Pan Am 103 bombing, eleven years after that December 
1988 tragedy. This action, while important from our perspective, does 
not end our designation of Libya as a state sponsor of terrorism. That 
can only happen when we have clear evidence that Qadhafi has:

  <bullet> Fully cooperated with the Pan Am 103 trial,
  <bullet> Fulfilled all obligations under U.N. Security Council 
        resolutions,
  <bullet> Renounced the use of terrorism, and
  <bullet> Severed remaining ties to terrorist groups.

    A French court convicted Qadhafi's brother-in-law, Libyan 
intelligence chief Abdallah Senoussi, for his involvement in the UTA 
772 bombing. Last month, the French magistrate investigating the UTA 
772 case is seeking to indict Qadhafi himself. We will be following 
this case very carefully over the next few months.
    Beyond these officially designated state sponsors, we remain 
concerned about other countries in the Middle East and South Asia. I 
spoke earlier about our efforts to persuade Pakistan to use its 
influence to bring Usama bin Ladin to justice. This is a bone of 
contention between Pakistan and the United States. I am also disturbed 
that Lebanon remains a haven for terrorist groups and individuals, some 
of whom are fugitives from U.S. justice for acts committed against 
Americans in the 1980's. We continually raise this problem with the 
Lebanese government.
Long-term strategy and needs
    Mr. Chairman, I want to reaffirm that the central element of our 
counterterrorist efforts remains a combination of political will and 
diplomatic action. We can combat terrorism only if we persuade other 
governments to work with us. Intelligence-sharing, law-enforcement 
cooperation, and armed force are important, but they must be integrated 
into our overall political/diplomatic strategy. A long-term, sustained 
effort, however, requires not just a firm commitment from our leaders, 
but also resources.
    Let me say a word about the resources we need to fight terrorism. 
It is vital we help friendly governments acquire counterterrorist 
skills. Part of our cooperative effort includes providing training 
through the State Department's antiterrorism assistance program. This 
training in such courses as bomb detection, airport security, hostage 
negotiation, and crisis management is extremely important both as a 
foreign policy tool in fighting terrorism and also in protecting 
Americans who travel or work overseas.
    Every American ambassador has explicit instructions from the 
President to protect the lives and the welfare of American citizens 
overseas. Antiterrorism assistance permits our envoys to do their jobs. 
It is the currency that a U.S. ambassador can use to ``sell'' a foreign 
government on the need for firm counterterrorist action. Without it, 
our representatives have nothing to offer and no way to enlist foreign 
governments in protecting our citizens.
    Fighting terrorist fundraisers and bomb makers takes money. Yet the 
foreign operations bill would cut our proposed combined antiterrorism 
and terrorist interdiction programs by 36 percent. This is 
unconscionable, in my opinion. These terrible cuts are short-sighted 
and make it impossible for us to continue the three-year training 
programs launched for countries in Africa and Eastern Europe after the 
bombings of our embassies in East Africa last year and still provide 
needed training for key countries in the Middle East and elsewhere.
    International cooperation, antiterrorism training, action to 
counter terrorist fundraising, advances in explosive-detection 
equipment, exercises to deal with crises, and rewards for information 
are not abstract ideas or ``foreign give-aways.'' They are good 
investments in the protection for American citizens and interests.
    Mr. Chairman, whenever there is a major terrorist incident, 
everyone demands that we ``do something.'' But weeks later when the TV 
images fade away, it becomes frustratingly difficult in the next year 
to get the funding for programs that do something.
    I know that you and your committee have been supportive of our 
efforts and we are grateful. But I am not sure that the importance of 
these programs is understood fully elsewhere in Congress.
    The bottom line is that, to fight terrorism effectively, the State 
Department needs resources to do so. Without them, Americans who live 
and travel overseas will continue to risk attack from whoever carries a 
grudge and weapon.

    Senator Brownback. Thank you for your testimony. I look 
forward to some questions. I hope the administration, as well, 
puts it as a high priority on these funds on the foreign 
operations budget, that it is a top priority that they put 
forward. Because, as you know, we are in a budget negotiation, 
and everybody is trying to protect Social Security. And I 
certainly agree with that. So it is going to be important that 
the administration make it a high priority, this area. And I 
think it will be important that they do that.
    The thing I am searching for, and I want to go, first, on a 
general statement, and then I am going to have some specific 
questions, is the start to find the comprehensive policy that 
the United States is going to exert both now and in the future 
in dealing with these extremist threats. Because it strikes me 
that we need a combination of both sticks and carrots here, in 
working with various governments, and effective threats and 
penalty for terrorist groups. And you have got it really 
covering the front of this entire subcommittee's jurisdictional 
area, which covers Northern Africa, the Middle East and South 
Asia, and you have got different policies that need to go into 
play in each area.
    In the Sudan it might be one policy. In Pakistan it might 
be another. In what is taking place in Afghanistan, it could be 
a policy, and yet you could go just up into Central Asia, what 
is taking place in Uzbekistan or Kyrgyzstan and it will be 
another. There are friendly governments that seek to work with 
us, and we should help and work with them. There are those who 
oppose us clearly, and we should oppose them clearly, if that 
is the route that they choose to go.
    And then there are nations like Saudi Arabia, who have 
links to much of this, that we seem to kind of look the other 
way. I do not see the comprehensive policy thread here. Can you 
shine that light to me? Or I guess maybe you just pledge to 
work with us on developing that, to confront this extremism in 
that region of the world that hits us so much.
    Ambassador Sheehan. Mr. Chairman, I do believe we have a 
policy. Maybe it has not been articulated that well. I can take 
a crack at it this afternoon.
    The policy basis starts with an effort to depoliticize the 
use of terrorism and to criminalize its behavior. And we try to 
do that on a wide range of activities, with international 
legislation, international conventions, that we have built up 
over the last 20 years. We have instruments that help us define 
countries or organizations that are involved in terrorism. Two 
of those instruments were the creations of the U.S. Congress 
that I mentioned in my remarks--state sponsorship and 
designating terrorism.
    These are very important tools that we use to pressure the 
state sponsor, to bring sanctions to bear on them, which not 
only have an economic bite, but I think, as importantly, is to 
shine the light of truth on these governments and to embarrass 
them politically and bring international pressure against them.
    There is a growing consensus around the world that 
terrorism is an illegitimate instrument, shown by the 
overwhelming support for the resolution against the Taliban in 
the Security Council last month. A range of governments joined 
together to condemn the Taliban for that. That is an important 
aspect of our policy--gaining consensus on that.
    As we build that political consensus, then we need an array 
of instruments that we need to coordinate and synergize to 
leverage countries to behave properly. And beyond the state 
sponsors, I keep informally, in the back of my own mind, a 
list--what you call the aiders and abetters--I call, in the 
back of my mind, the nations behaving badly regarding 
terrorism.
    And we need to have concerted pressure on them to get them 
to change their behavior, not to allow them to turn a blind eye 
to terrorists that may operate in their borders or pass through 
their borders to conduct attacks in other places. And we have 
to bring all our instruments to bear--intelligence, law 
enforcement--as ways to cooperate with them, and use other 
sticks, like you say. And primarily those can be financial and 
trying to bring pressure to bear on them.
    Our Office of Foreign Assets Control in the Treasury, we 
work closely with them. That brings pressure on governments 
whose banks may not be as vigilant as they should be involving 
terrorism funds. So there is a whole array of instruments that 
we try to bring to bear, often quietly, behind the scenes, but 
I think do represent a broader policy that we have at work.
    When you talk about a strategy, I think you are absolutely 
right. We need country-specific strategies. And I have tried to 
do that in my office over the past year, focusing on the 
primary threats that face the United States. And I alluded to 
those in my testimony. They are mostly emanating out of South 
Asia right now. Unfortunately, that is where the threats that I 
see coming at us are coming from there.
    And we have tried to design a country-by-country strategy, 
on finding out how we can bring pressure to bear on that 
equation. And so we have that policy. It probably can be better 
articulated. I am sure it can be improved. And as you indicated 
earlier, I look forward to working with you and the members of 
your staff, who I know have thought a lot about this, to 
improving that policy and making it more effective.
    Senator Brownback. We may look even at some legislative 
vehicles to put together for this next year to consider what we 
could do in combatting extremism.
    Let me take you to the specific case of Osama bin Laden. It 
has been in the news a great deal lately about some discussion 
of him leaving Afghanistan. There have been a couple of 
discussions about him leaving Afghanistan, and going, with safe 
passage, possibly to Iraq. And these are the news accounts I am 
just reiterating. And also about him getting financing still 
out of Saudi Arabia.
    What can you tell us? Is he continuing to get financing out 
of financial institutions in Saudi Arabia?
    Ambassador Sheehan. Let me take the first question, Mr. 
Chairman, regarding Osama bin Laden's possible movement out of 
Afghanistan. We have heard this before. And it did not pan out. 
He has been there for quite a while now. Right now there are 
increasing reports of him potentially leaving and reports of 
him writing a letter to the Taliban leadership about offering 
to leave.
    We have made it clear to the Taliban that they are required 
to turn him over to justice, not only by our own executive 
order, signed by the President in August, but also now, by the 
entire international community, as represented in the Security 
Council resolution.
    He does not have a lot of places to go. And part of the 
reason of that is the success we have had over the last several 
administrations in making it more difficult for state sponsors 
to take on a blatant terrorist like bin Laden. There are a 
couple of options out there for him. Iraq has been mentioned. I 
have heard Chechnya and other areas. They all have difficulties 
for him. And we are working with governments, a range of 
governments, to try to shut down his opportunity to leave 
Afghanistan, and make sure he has only one place to go. And 
that is to face justice for what he has been charged with.
    It remains to be seen how that will pan out. We are talking 
to the Taliban. We get some positive signals from them 
sometimes that they would like to resolve this issue. I am 
convinced that there are members of their organization who want 
to resolve this issue. But it remains to be seen what they do. 
And that is what matters. And up till now, they have determined 
that they want to provide safe haven for Osama bin Laden.
    But I can assure you, Senator, that we are working hard. I 
have been working with my colleagues at the NSC staff to try to 
figure out where he may be heading to, based on our 
intelligence reports, and trying to shut off those avenues.
    On your second question, regarding funding for Osama bin 
Laden, of course it is widely reported that he had his own 
resources that provided funding for his organization. He is 
also able to tap into resources such as the narcotics trade out 
of Afghanistan, which is growing significantly, my colleagues 
in the narcotics bureau tell me. He is able to tap that.
    It is also fairly evident that there is Gulf money that 
works its way back into Afghanistan.
    Senator Brownback. And to bin Laden?
    Ambassador Sheehan. Yes. Yes, sir, through bin Laden. 
Through a variety of ways.
    Senator Brownback. Is it going through some legitimate 
institutions, as well?
    Ambassador Sheehan. We have had conversations with a lot of 
our Gulf friends about some of the banks out in the Gulf. And 
some of that has been reported in the press.
    I think the article you referred to had some inaccuracies 
in it regarding the level of that knowledge. My personal view, 
from what I have read, much of that money that comes from Gulf 
sources is not--a lot of that money is held overseas and can be 
moved fairly easily in today's international financial 
networks. It is a difficult problem to tackle.
    And the terrorists, they understand the international 
financial markets and circuits and have found ways to move it 
around internationally. So it is not as easy as focusing on one 
or two banks in order to tackle that. They know how to move it 
around quickly.
    But we are working. We have a task force of folks in the 
government that are working on this issue, not only looking at 
some of the banks, but also at other groups, such as NGO's and 
other front companies that are increasingly used to launder 
money through to terrorist organizations. Some of the 
fundraising in the Gulf, in my view, is done innocently.
    A rich individual may be asked to contribute millions of 
dollars to an organization to help refugees in a certain 
country. And he may write that check innocently, not knowing 
that a lot, or portions, of that funding may be diverted to 
terrorist activities. Others may be writing the check knowing 
full well where its destination may be.
    It is one of the most difficult areas we have to deal with. 
And we are trying to advance a multi-pronged strategy on this. 
One of the issues we are doing in the U.N. right now is trying 
to get a convention on money laundering, financial support for 
terrorism. We think that is going pretty well. The French have 
sponsored that. It will provide us the legal basis that we need 
internationally to help go after some of these organizations 
and banks.
    Senator Brownback. Are the Gulf states all fully 
cooperating with the United States' efforts to stop this flow 
of money to extremist organizations?
    Ambassador Sheehan. They are cooperating, sir. We have had 
teams go to several Gulf states from Treasury, the White House, 
and the law enforcement community. They are cooperating.
    I will say, though, I would like to see that cooperation 
increase. And they need to increase their efforts. And we can 
help them also, providing some of the training and skills, the 
expertise we have developed in money laundering, often in the 
counternarcotics community, and bring those lessons to bear as 
the terrorists become more adept at finding ways to raise and 
move money around.
    Senator Brownback. I hope we will press those Gulf states 
if that is where the problems are. We have had a hesitancy, it 
seems like to me, too much of the time to confront sometimes 
people who have been good friends of ours, but they seem to, 
for whatever reasons, turn something of a blind eye to this 
activity, or are not as aggressive as the situation would 
warrant, when you have so many who have been killed and so much 
of a continuing upsurge in this extremism movement.
    I want to focus your specific view on Khobar Towers. Do we 
know any further about terrorist groups linked with the 
Iranians and what, if anything, they are doing or have been, 
associated with the Khobar Towers bombing?
    Ambassador Sheehan. Mr. Chairman, I am not sure, at this 
hearing, I am going to be able to add much to what Martin Indyk 
said in his confirmation hearings the other day, that we have 
information that links Iranian officials to the Khobar bombing 
incident. The FBI has that information. The intelligence 
community has that information. It is information that is being 
developed on a daily basis.
    We have not made the determination that that information 
clearly implicates the Government of Iran for Khobar Towers. I 
share with you, Mr. Chairman, the goal of getting to the bottom 
line truth of this incident, of this bombing which claimed 19 
servicemen. I am working within the interagency community that 
deals with the analysis of this situation. You have the law 
enforcement analysis, which is trying to build a case, to get 
indictments, to bring people to trial. You have the 
intelligence community that has a different standard of 
information and making judgments.
    Collectively, we will make that judgment on the culpability 
of the Iranian officials and, if necessary, how far, if at all, 
it goes up to the Iranian Government. I commit to you, Mr. 
Chairman, that we will work very hard on examining this 
evidence and shining the light of truth on to it as we 
determine what the policy implications might be for that in the 
future.
    And I look forward to that. I could perhaps provide more 
detailed information on what we do know, but it might need a 
closed session in the future. And I can bring colleagues from 
the law enforcement and the intelligence community, perhaps 
with you or members of your staff, to lay out where we are 
right now and where we are in our judgment about the complicity 
of those officials.
    Senator Brownback. I hope that in our desires to broaden 
relationships with Iran, which is a laudable goal, but that we 
do not look past the deaths that took place at Khobar Towers. 
We cannot allow that to take place. And as you mentioned in 
your statement, about working with relatives of the people who 
have been killed in these terrorist attacks, we owe it to them 
to provide clear answers, and conviction on our part that they 
are not made to succumb to some overall policy desire that may 
or may not happen, that we get to the bottom of this and that 
we pursue the appropriate actions with the facts that we do 
learn.
    Let me say in closing, too, because I need to get the next 
panel up, and we are going to have a series of votes, I am 
told, around 4:15, that there is another type of extremism that 
is raising its head, and a number of people are getting killed 
associated with it. And that is in the religious persecution 
area in that region as well. And we are seeing it from the 
entire area and breadth. And I hope your office continues to do 
work on that issue, too. Because these are cases where there 
are terrorist actions that are taking place and large numbers 
of people are being killed. That is inappropriate altogether. 
So if you will look at that.
    I want to just mention this to you before I let you go. The 
list of major drug trafficking groups was due on the Hill, by 
law, by November 1. Has that list gotten up to the Hill yet? I 
do not believe it has. Is that list going to be forthcoming 
shortly?
    Ambassador Sheehan. Mr. Chairman, I am not sure, but I will 
check with my friend and colleague, Randy Beers, as soon as I 
leave this committee room, to make sure that that gets up to 
you in a timely manner.
    Senator Brownback. So we could have that to work with, as 
well.
    Ambassador Sheehan. Yes, sir.
    Senator Brownback. As I said, we may be working on some 
legislation. We look forward to continue working with your 
office, and also until we get to the bottom of a number of 
these cases.
    It is just that a number of different groups are operating. 
But the overall thing that I would like for you to really place 
in your mind is what we can do, working together, to put 
together this comprehensive strategy. Because this is not a 
problem that is going away any time soon.
    Thank you very much, Mr. Ambassador.
    Ambassador Sheehan. Thank you, Mr. Chairman.
    Senator Brownback. In the interest of time, I want to call 
up the next panel before we get a vote called. That will be Mr. 
Mansoor Ijaz, managing partner, Crescent Equity Partners; Mr. 
Milt Bearden, retired CIA officer and former Chief of Station 
in Sudan and Pakistan; and Dr. S. Frederick Starr, chairman of 
the Central Asia-Caucasus Institute at Johns Hopkins 
University; and Michael Krepon, president of the Henry Stimson 
Center. I welcome you gentlemen.
    Gentlemen, I have got a dilemma. And that is that at 4:15, 
we are supposed to go into a series of rollcall votes that will 
keep me away for a couple of hours. I guess that would be 
called a rain delay in baseball, or a vote delay here. We can 
go probably until about 4:30.
    And what I would like to do is if I could--because each of 
you deserve to be fully heard, and I want to hear your 
testimony--but I am wondering if we could go, say, somewhere in 
the 5- to 7- or 8-minute category on actual comments, take your 
full statement in the record, and then we will see. Maybe this 
vote will get delayed and we will get a chance to have an 
exchange. But right now it looks like we would have to probably 
end the hearing at 4:30.
    So with that, if you could participate within that 
structure. And I apologize again for doing that, but they just 
went ahead and scheduled the votes.
    So, Mr. Ijaz, I hope I am stating that correct, I have got 
you down first, if you would like to go ahead. We will take 
your full statement in the record. And if you could summarize 
in the 5- to 7-minute category, I would certainly appreciate 
that.

 STATEMENT OF MANSOOR IJAZ, MANAGING PARTNER, CRESCENT EQUITY 
                  PARTNERS, LLC, NEW YORK, NY

    Mr. Ijaz. Thank you, Mr. Chairman, for inviting me to be 
with you today and offer a perspective on how we might address 
some of the problems associated with extremism and terrorism.
    I come before you today as an American of the Islamic faith 
and a citizen deeply concerned about the dangers posed to free 
societies all over the world by unbridled extremist behavior, 
whether it is Islamic or otherwise. Terrorism, as you well are 
aware, is used by sponsors because it is a cheap and effective 
way of expressing challenges to what is perceived, certainly in 
the demographic area that we are talking about today, as 
Western hegemony and imperialism. It is a viral infection of 
the mind that cannot be seen until it is too late.
    For too long, the United States, in my judgment, has tried 
to impose a vision of societal organization and governance on 
countries that were either unwilling or unable to accept our 
doctrines, because their people were not sufficiently educated 
to accept a form of self-rule so heavily dependent on personal 
responsibility. America's abrupt withdrawal from Afghanistan--
and here I am going to just say that I will talk about Pakistan 
and Afghanistan initially, and I will let my colleague, Milton 
Bearden, address the issues in the Sudan, even though I have 
done some work there, as well--but the abrupt withdrawal from 
Pakistan and Afghanistan after the collapse of communism is a 
prime example of how poorly thought through U.S. policies can 
be in germinating the very forces that we seek today to try and 
contain.
    In 1990, we left our friends in Pakistan, then a nascent 
democracy, healing the wounds of a decade of dictatorial rule, 
to deal with the remnants of our ideological war: drug 
trafficking, arms bazaars and millions of unwanted refugees. 
Our precipitous departure created a vacuum for other regional 
Islamic powers, such as Saudi Arabia and Iran, to fight their 
ideological war, pitting Sunni Islam against Shia Islam, a war 
whose terrorist dimensions have afflicted virtually every 
Islamic state in Central and South Asia.
    Mr. Chairman, I respectfully submit to you that our policy 
vacuums cannot continue without serious ramifications for U.S. 
interests. A multidimensional approach is needed to be crafted 
to replace current policies of blunt instrument sanctions and 
isolationism in order to better calibrate--and that is the key 
word--to calibrate U.S. responses to terrorist acts.
    Now, the most important of these multidimensional 
approaches that I would like to talk about are education 
programs in these affected countries and intelligence-to-
intelligence cooperation. And I will give you two examples in 
that process.
    The first is the recent military coup in Pakistan. And the 
second is what I did about 2 years ago to try and effect a 
reconciliation between the Sudan and the United States, in 
which I was able to bring a meaningful counterterrorism offer 
from the Government of the Sudan to the United States prior to 
our intelligence community becoming engrossed in this process 
of trying to figure out whether they were producing chemical 
weapons or not.
    So the question there that has to be asked is, what would 
have happened if they had acted on the counterterrorism offer 
that I brought in April 1997--I hand carried the letter from 
Khartoum to Washington--and gone in there with our FBI's 
counterterrorism units and had a good look around? That was the 
offer. It was an unconditional, open the doors, let us come in 
and see what is going on. And it was an intelligence-to-
intelligence contact that we could have had.
    Now, on Pakistan, the coup is a manifestation, in my 
judgment, of how extremism has taken root at the core of 
societal institutions and overwhelmed the dilapidated 
educational infrastructure once in place to combat it. 
Pakistan's Islamists may have failed to win popular electoral 
support due to the country's unique brand of feudal politics, 
but they have learned that taking to the streets with a mix of 
sectarian violence and popular disruptions can exert enough 
pressure on corrupt civilian leaders to force ill-advised 
domestic and foreign policy decisions which serve the 
Islamists' narrow ideological objectives. The Kashmiri gambit 
of Prime Minister Nawaz Sharif in the summer of 1999 is a good 
example of how extremist politics can spiral out of control.
    Now, the origins of all of this extremism come from the 
Iranian revolution. In 1980, when the Iranian Shah was 
overthrown, you had a very large amount of money put into 
Pakistan. Because, as you know, at that time, Pakistan's 
population was exploding. It was literally growing at 3.5-5 
percent per annum. So militant Saudis and militant Iranians 
decided that Pakistan's population explosion was a good place 
to try and play their own ideological struggle out.
    And so they started these radical religious schools. Every 
Pakistani family that had 10 children donated their extra sons 
to a life of Islam. They thought they were doing something in 
the cause of their religion that was the right thing to do.
    Instead, it turned out that their children are today's 
Islamic extremists. And this is a part of the process that we 
have not yet understood in this country. Too few of our leaders 
understand what Islamic extremism is about because too few of 
them understand what Islam is about. This is something that has 
to be corrected in the way that we do things.
    Now, I would also like to make a comment about Pakistan's 
intelligence services, which, in my judgment, have been a very 
destructive force in South Asia, after we pulled out in 1990. 
Let us keep in mind that we were engrossed in Pakistan. In 
fact, Milt ran one of the largest CIA operations in Islamabad 
for the period of time during which the Afghan war was going 
on.
    And during that period of time, we had a very close 
relationship, military to military, intel to intel. The 
international military exchange and training program was going 
on. So military officers from Pakistan were coming to the 
United States. They were being trained in what a military 
government was all about and how the military ought to act in 
civil society when civil rule would return. And all of these 
things have now been literally shut off as a result of our 
sanctions policies, our unilateral sanctions policies, against 
Pakistan. Which I think was one of the biggest blunders that we 
made in this country.
    Now, you can look at this problem in a slightly different 
way, as well. When you lose the ability to influence the minds 
of the people running the most powerful institution in a 
country that today has nuclear weapons, and at that time was 
developing nuclear capabilities at our behest, you lose the 
ability to influence events. We have lost our leverage, in my 
judgment, over what can happen in Pakistan today.
    Now, what are we doing to try and correct that? And I will 
end my comments with this example, if I might. For the past 5 
years, myself and other concerned Americans of Pakistani 
origin--and I am a born American citizen, as you well know--
have been trying to combat the effects of these madrassa 
schools, these radical religious schools, by building what I 
call sort of the normal example of what a school ought to be, 
where you do not learn just the Koran and how to shoot a 
Kalishnikov rifle at age 12, but you learn the Koran, you learn 
English, you learn Urdu, you learn math, you learn science, you 
learn a little bit of biology.
    So we have been building these rural schools all throughout 
the northwest frontier province and Punjab, to try and combat 
the effects of this rising tide of radicalism that has 
overtaken Pakistan in a very real sense. You would be surprised 
to know that it only costs you $1,000 to build and operate a 
normal rural school, teaching up to 30 students in these very 
remote areas. And it only takes 5 years to get these children 
on the right track and make them literate as you go along.
    So what I would like to say in conclusion, Mr. Chairman, 
given the time constraint, is the following. No matter how much 
we do as private American citizens, our program, which is 
called Development in Literacy, and the acronym is DIL, which 
in Urdu is the word for heart, it is only a microcosm of what 
we really need to be able to do. We need to be able to do this 
on a larger scale.
    Education is a critical cornerstone. Just as we are 
fighting that battle right here in the United States, we have 
to devote resources to ensure that those problems do not reach 
our shores in other forms and other different religious 
beliefs, under different systems that we do not understand 
here. The young boys and girls of Pakistan and Afghanistan who 
face a life of illiteracy and religious zealotry have not 
chosen that path voluntarily. To sit idly by and do nothing not 
only dooms them, but I fear it will doom us as well in the end.
    Thank you, Mr. Chairman. I ask that the balance of my 
remarks be entered into the record.
    [The prepared statement of Mr. Ijaz follows:]

                   Prepared Statement of Mansoor Ijaz

    Thank you, Mr. Chairman and distinguished members of the 
Subconmiittee present here today for permitting me to share with you 
some ideas on how to combat the growing problem of extremism and its 
by-product, terrorism.
    I come before you today as a born American of the Islamic faith and 
a citizen deeply concerned about the dangers posed to free societies 
all over the world by unbridled extremist behavior, whether Islamic or 
otherwise.
    Terrorism is used by its sponsors because it is a cheap and 
effective way of expressing challenges to what is perceived--certainly 
in the geographic region we are addressing today--as western hegemony 
and imperialism. It is a viral infection of the mind whose visible 
effects cannot be seen until it is too late.
    For too long, the United States has tried to impose its vision of 
societal organization and governance on countries that were either 
unwilling or unable to accept our doctrines because their people were 
not sufficiently educated to accept a form of self-rule so heavily 
dependent on personal responsibility.
    America's abrupt withdrawal from Afghanistan and Pakistan after the 
collapse of Communism is a prime example of how poorly thought through 
U.S. policies can be in germinating the seeds of the very forces we 
seek to contain today.
    In 1990, we left our friends in Pakistan, then a nascent democracy 
healing the wounds of a decade of dictatorial rule, to deal with the 
remnants of our ideological war--drug trafficking, arms bazaars and 
millions of unwanted refugees.
    Our precipitous departure created a vacuum for regional Islamic 
powers, such as Saudi Arabia and Iran, to fight their ideological war 
pitting Sunni Islam against Shia Islam--a war whose terrorist 
dimensions have afflicted virtually every Islamic state in Central and 
South Asia.
    Mr. Chairman, I respectfully submit to you that our policy vacuums 
cannot continue without serious ramifications for U.S. interests. A 
multi-dimensional approach needs to be crafted to replace current 
policies of blunt instrument sanctions and isolationism in order to 
better calibrate U.S. responses to terrorist acts.
    We must develop strategies for long-term education programs aimed 
at preventing extremism from infecting new generations of children in 
susceptible regions of the world.
    We must increase our military-to-military and intelligence-to-
intelligence contacts with unfriendly governments.
    And, we must more vigorously structure human intelligence networks 
that can inform us about extremist organizations before they become 
full-blown terrorist networks.
    The education and intelligence-to-intelligence dimensions of the 
strategy I suggest are best exemplified by Pakistan's recent military 
coup and my own efforts at reconciling the failures in our relationship 
with the Sudan.
    Pakistan's coup is a manifestation of how extremism has taken root 
at the core of its societal institutions and overwhelmed the 
dilapidated educational infrastructure once in place to combat it.
    Pakistan's Islamists may have failed to win popular electoral 
support due to the country's unique brand of feudal politics. But they 
have learned that taking to the streets with a mix of sectarian 
violence and popular disruptions can exert enough pressure on corrupt 
civilian leaders to force ill-advised domestic and foreign policy 
decisions which serve the Islamists' narrow ideological objectives.
    Former Prime Minister Nawaz Sharif's gambit in the heights of 
Kashmir during the spring and summer of 1999 is a glaring example of 
how extremist politics brought the world to the brink of a fourth Indo-
Pakistani war.
    Not surprisingly, extremism has taken root within Pakistan's army 
as well, fracturing its western trained secular upper management from 
its battalions of soldiers educated in radical religious schools, or 
Madrassas--fractures that were also at the very heart of the October 
12, 1999 coup.
    The origins of these fractures began some twenty years ago, at the 
height of the Iranian revolution, when Iran's radical Shiite mullahs 
and Saudi Arabia's fundamentalist Sunni clerics decided Pakistan's 
population explosion was fertile ground for fighting their ideological 
struggle.
    Madrassas were built throughout the Pakistani countryside with 
large infusions of Saudi and Iranian cash and readied staffs of Islamic 
clerics. Overpopulated Pakistani families donated their extra sons to a 
life of Islam, reducing their financial burdens and vesting themselves 
in the promises of redemption from extremist clerics who chided their 
secular ways.
    Today, these schools number in the thousands and teach primarily 
Islamic fanaticism and basic military training rather than a broad-
based set of pluralistic values and diversified knowledge.
    Poorly educated, militarist adolescents have now grown up to 
populate army brigades and intelligence bureaus. These Islamists are 
tomorrow's generals, corps commanders and intelligence chiefs, devoid 
of training that breeds moderation and respect for dissension.
    Pakistan's intelligence service, the ISI, has aggressively used 
Madrassa graduates to man covert and overt operations. ISI-trained and 
financed freedom fighters now populate resistance movements in China's 
Xinkiang province, Chechnya, Dagestan and Kashmir among other places 
where radical Islam is now spreading.
    America's complicity in perpetuating this regional turmoil is 
inescapable. Take for example the decades in which the U.S. military 
trained Pakistan's secular army personnel under the International 
Military Exchange and Training Program, commonly known as IMET.
    IMET fostered the development of personal military-to-military 
bonds that allowed America to ``see'' inside Pakistani anny minds while 
also encouraging the development of an ethos in the army that respected 
civilian rule.
    Freezing IMET assistance in 1990 caused a vacuum that has now been 
incrementally filled during the past decade by the creeping footsteps 
of urban Islamists slowly ascending the ladder of command inside the 
army.
    It has also encouraged rogue elements to operate inside the ISI, in 
effect catering to the whims of corrupt civilian politicians for 
conducting inappropriate covert intelligence operations--often inside 
Pakistan's borders.
    In an effort to combat the destructive forces being bred in these 
Iranian and Saudi-financed Madrassa schools, myself and concerned 
Americans with Pakistani roots have been building rural schools in 
Pakistan for the past five years through a private U.S.-based 
philanthropy.
    You may be surprised to know that $1,000 builds and operates a 
normal rural school teaching up to 30 students everything from the 
Koran to science and math to Urdu and English for a whole year. And, it 
only takes five years to make a child literate in our programs.
    But no matter how much we do, our program is only a microcosm of 
what needs to be done on a much larger scale throughout the region to 
combat the cancerous spread of extremism.
    The young boys and girls of Pakistan and Afghanistan who face a 
life illiteracy and religious zealotry have not chosen this path 
voluntarily. To sit idly by and do nothing not only dooms them, in the 
end I fear it will doom us as well.
    Mr. Chairman, I would like to also briefly address the issue of 
developing intelligence liaisons with countries who support extremist 
and terrorist organizations that are directly at odds with American 
interests.
    I offer as an example my 1996-97 efforts to effect a reconciliation 
between the militant Islamic government of the Sudan and U.S. 
authorities through intel-to-intel contacts before the U.S. bombed 
Sudan's Al Shifa pharmaceutical plant in August 1998 under suspicions 
it was producing chemical weapons precursors.
    In April 1997, I hand carried an offer by Sudanese strongman Omar 
Hassan El Bashir to U.S. authorities, including Congressional leaders, 
the Secretary of State and the National Security Advisor, in which 
Bashir stated, ``We extend an offer to the FBI's counterterrorism units 
and any other official delegations . . . to come to the Sudan and work 
with our External Intelligence Department in order to assess the data 
in our possession and help us counter the forces your government and 
ours seek to contain.''
    Jim Risen's October 27, 1999 expose in the New York Times is must 
reading on the internal divisions that occurred in our national 
security apparatus as well as distasteful efforts by senior 
administration officials to coordinate a cover-up of the dissension 
that surrounded the decision to bomb Al Shifa.
    What would have happened, following Mr. Risen's timeline, if U.S. 
authorities had responded to Bashir's April counterterrorism offer and 
sent the FBI into the Sudan for a good look around before U.S. 
suspicions arose later in the summer that nerve gas agents were being 
developed at Al Shifa? The offer was unconditional.
    On two occasions, I met privately with Sudan's intelligence chief 
to explore the modus operandi for such interactions.
    The reasoning behind my approach to Bashir was simple: if the Sudan 
was genuinely not harboring terrorists or fomenting radicalism after 
its 1996 decision to expel Osama bin Laden, the alleged Saudi 
mastermind of the embassy bombings, the only way to prove Khartoum's 
complicity or innocence was to invite America's premier institutions 
fighting global terrorism into the country for an unobstructed look.
    Had we responded, the Sudanese people could be assured America was 
holding true to its principle of innocent until proven guilty, while 
U.S. national security advisors would retain their options in dealing 
with signs of terrorist training camps, illicit chemical weapons 
factories or other problems associated with the surge in radical 
Islamic behavior.
    Equally important, ordinary Americans might not have to face angry 
Muslim radicals unless the evidence of guilt uncovered was compelling 
and condemnable not only by the U.S. but by other Muslim nations and 
the world community at large.
    Why wasn't Bashir's offer acted on sooner? In fact, it is precisely 
this inaction by U.S. authorities that raises the deep skepticism 
pervading America's Muslims as well as many Muslims elsewhere about the 
true agenda in Washington for dealing with complex and unstable 
elements in the Islamic world.
    The key to defusing radical Muslim behavior cannot be found by 
choosing its most vulnerable targets for missile practice.
    Rather, we should aim to raise up the Islamic world's most 
disaffected people so they are not as desperate to tear us down. We 
must resolve to engage rather than contain the elements of Islam we do 
not understand.
    American Muslims can and should be foremost in assisting with this 
effort.
    If we do not, we might find one day soon that terrorism on our soil 
was born of the unjust and indiscriminate policies we condoned through 
our complacency, inaction and ignorance.
    Thank you Mr. Chairman for affording me the opportunity to offer 
this perspective. I ask that the balance of my written remarks be 
entered in their entirety as part of the record and I am happy to take 
any questions you may have.

    Senator Brownback. Without objection, they will be.
    Thank you. You are quoting Abraham Lincoln, as well. He 
said that whoever controls the classroom today will control the 
country tomorrow.
    Mr. Bearden, you have had a great deal of experience 
dealing in these areas. I look forward to your comments and 
your thoughts on what we need to do.

 STATEMENT OF MILTON BEARDEN, RETIRED CIA OFFICER, FORMER CIA 
                  CHIEF IN SUDAN AND PAKISTAN

    Mr. Bearden. Thank you, Mr. Chairman.
    Senator Brownback. I will go ahead and run the clock, just 
to give you an idea of where we are time-wise.
    Mr. Bearden. I will give you my abbreviated comments and 
enter for the record the full remarks.
    Senator Brownback. Without objection.
    Mr. Bearden. Thank you, Mr. Chairman, for your kind 
invitation to appear before the committee today to discuss the 
important topic of extremist movements and their threat to the 
United States. It is a topic involving policy issues that will 
reach increasing prominence in the new millennium and in a 
world that is still adjusting to the end of the bipolar 
alignments of the cold war and the order that they exerted.
    I speak to you today as a private citizen, but also as one 
who spent 34 years in public service, 30 of that in the CIA. 
After many years of living and working in Islamic societies, I 
feel qualified to comment on U.S. policies toward Islamic 
states in general, and toward the states and groups we now 
consider the most menacing; in particular, Sudan and 
Afghanistan.
    As we are speaking of regional influences in Central Asia, 
Mr. Chairman, we must also discuss U.S. policy toward Pakistan, 
which though by no means is a terrorist state, is nevertheless 
a growing concern. We are at a policy crossroads with respect 
to all three of these countries. All are under unilateral or 
U.S.-led multilateral sanctions, and all are considered 
potential threats to peace to the United States or to our own 
vital interests.
    In 1998, the United States launched cruise missile attacks 
against Sudan and Afghanistan, driving to a new low our already 
severely strained relations with those countries. And during 
the ensuring 14 months, anti-American sentiments in Pakistan 
have become so heated that the cries for jihad against 
Americans have been heard in the streets of Peshawar and 
Islamabad for the first time in almost 20 years.
    As we assess the situation in Sudan and Afghanistan, and 
separately in Pakistan, we might instinctively conclude that 
Islamic fundamentalism is the root cause of our concerns. But a 
more thorough assessment might lead to another conclusion. In a 
frank appraisal, we might deduce that the common denominator 
among these three countries is not really fundamentalist Islam 
or the tragic and frightening specter of the crushing poverty 
of failed or failing states. We might determine instead that 
the real common root of our concern is the U.S. disengagement 
from each of these countries for most of the last 10 years.
    Being the world's sole superpower carries with it awesome 
responsibilities. The immense military and economic power of 
the United States and our truly remarkable national values 
weigh equally heavily whether we apply them to isolate or to 
help failing states. To be successful in dealing with the 
changing nature of the terrorist threat, our government must 
commit itself to a disciplined and demanding approach to the 
problem and to the formulation of policies designed to provide 
lasting solutions rather than expedient demonstrations of 
power.
    Our government must take care to concentrate the focus of 
American power on clearly illegal and disruptive acts carried 
out by hostile governments and groups, while avoiding dwelling 
excessively on the aspects of their cultures, which we may find 
alien or noxious. In short, it is time to ask whether or not 
the best policy is to continue to attempt to isolate these 
troubled states and, in the process, possibly ensure that they 
slip into chaos, or whether we should take steps that might 
lift them out of their isolation and, in the process, deny them 
as safe havens for extremists elements that wish us harm.
    Mr. Chairman, if there is a new world order for the next 
century, it is this. The United States, as the sole remaining 
superpower, can no longer choose to isolate and ignore entire 
nations without dangerous consequences. The time-honored 
expectation of the last half century that the other side would 
somehow bring them under control if we let them go has expired. 
Things may have worked out that way in the bipolar world of the 
U.S. and the USSR, but they do not work that way today.
    Mr. Chairman, the entire concept of a failed state is new. 
It is a post-cold war concept, and I do not think we have 
developed policies to deal with it.
    Thank you, Mr. Chairman. And my full remarks can be entered 
into the record.
    [The prepared statement of Mr. Bearden follows:]

                  Prepared Statement of Milton Bearden

    Mr. Chairman, thank you for your kind invitation to appear before 
the committee today to discuss the important topic of ``Extremist 
movements and their threat to the United States.'' It is a topic 
involving policy issues that will reach increasing prominence in the 
new millennium and in a world that is still adjusting to the end of the 
bipolar alignments of the Cold War and the order they exerted.
    I speak to you today as a private citizen, but also as one who 
spent 34 years in public service, 30 of that in the CIA's Directorate 
of Operations. In many years of living and working in Islamic 
societies, I feel reasonably qualified to comment on U.S. policies 
toward Islamic states in general and toward the states and groups we 
now consider among the most menacing: Sudan and Afghanistan. And as we 
are speaking of regional influences in Central Asia, we must also 
discuss U.S. policy toward Pakistan, which, though by no means a 
terrorist state, is nevertheless of growing concern.
    We are at a policy crossroads with respect to all three countries. 
All are under unilateral or U.S.-led multi-lateral sanctions and all 
are considered potential threats to peace, to the United States, or to 
our vital interests.
    In 1998, the United States launched cruise missile attacks against 
Sudan and Afghanistan driving to a new low our already severely 
stressed relations with those countries. And during the ensuing 
fourteen months anti-American sentiments in Pakistan have become so 
heated that cries for Jihad against Americans have been heard in the 
streets of Peshawar and Islamabad for the first time in almost twenty 
years.
    As we assess the situation in Sudan and Afghanistan, and separately 
Pakistan, we might instinctively conclude that Islamic fundamentalism 
is the root cause of our concerns. But a more thorough assessment might 
lead to another conclusion. In a frank appraisal we might deduce that 
the common denominator among these three countries is not really 
fundamentalist Islam or the tragic and frightening specter of the 
crushing poverty of failed or failing states and their attendant slides 
into violence and drug trafficking. We might determine instead that the 
real common root of our concerns is U.S. disengagement from each of 
those countries for most of the last ten years.
    Being the world's sole super power carries with it great 
responsibilities. The immense military and economic power of the United 
States and our truly remarkable national values weigh equally heavily 
whether we apply them to help or to isolate failing states.
    Having served as the CIA chief in The Sudan as it slipped into 
Islamic fundamentalism in the early 1980's, and in Pakistan during the 
last three years of neighboring Afghanistan's brutal war to free itself 
of Soviet occupation in the late 1980's, I am personally familiar with 
both the U.S. foreign policy positions and the cultural realities in 
these countries and how they have come into dangerous conflict.
    The United States, once viewed as a close friend by the people of 
Sudan, is now viewed by the Sudanese as having indiscriminately 
attacked a harmless pharmaceutical plant. America, who once worked hand 
in hand with the people of Afghanistan in their struggle against the 
ten-year Soviet occupation, is now viewed by the people of eastern 
Afghanistan as the latest in a succession of foreign powers to attack 
those tortured foothills of the Hindu Kush. And the people of Pakistan, 
despite an enormous reservoir of good will toward the United States, 
have come to view us as at best unreliable and at worst erratic and 
bullying.
    To respond to these specific situations, a policy of diplomatic, 
and, in the case of Pakistan, military reengagement might well produce 
results we seek, but which have been so elusive for the last decade.
    In South Asia, Pakistan has been the United States' most reliable 
ally in the years since WWII. Pakistan stood on the side of the West 
during the early years of the Central Treaty Organization; it lent a 
hand at the critical moment of our opening to China in 1971, and it 
offered its territory for the U.S. to coordinate the effort to aid the 
people of Afghanistan in their war against the Soviet Union from 1979-
1989. In 1989, the Soviet Union withdrew its troops from Afghanistan, 
setting in motion a wave that crested the Berlin Wall seven months 
later. But in 1990, the United States invoked sanctions against it old 
ally, Pakistan, because of its ongoing nuclear weapons program, and 
abruptly ended military-to-military contact.
    In the ensuing ten years we have seen the Pakistani Army, born in 
the British Army tradition and tempered by decades of close cooperation 
with the United States, become increasingly radicalized. The once 
outward-looking officer corps of the Pakistan Army whose foundations 
were laid at Fort Benning and Fort Bragg, and whose flag rank officers 
all attended the Command and General Staff School at Fort Leavenworth, 
is being replaced by inward-looking officers who have been trained only 
in religious fundamentalist Madrassa schools.
    I cannot stress how the ranks of the Pakistan Army below general 
officer level have changed in the decade since military-to-military 
contact between the U.S. and Pakistan was terminated because of the 
strictures of U.S. legislation. If those laws were designed to punish 
Pakistan, they have, indeed, succeeded. But at the same time they have 
gone a long way to create the very conditions we most fear--an 
increasingly radicalized Pakistan with an ``Islamic Bomb.''
    Last month the Pakistan Army seized power from Prime Minister Nawaz 
Sharif. It is right and proper that the suspension of the constitution 
by the military National Security Council, however temporary, be 
decried. But such a development is not without some positive openings, 
particularly if through pressure by the international community, 
General Musharraf sets an early timetable for new elections. More 
immediate, however, are new opportunities these developments in 
Pakistan may present.
    Pervaiz Musharraf is a member of the last generation of Pakistani 
Army officers who remember the military partnerships of the past with 
the United States. He was trained at Fort Bragg, and was an early 
member of the elite 19th Baluch Regiment, the Pakistani Special 
Services Group, that trained jointly with U.S. Army Special Forces a 
few decades ago. At one time, he was just one among a majority in the 
Pakistan Army with such ties to the United States military.
    General Musharraf may represent a last good chance to bring the 
powerful force of our standing in the world and our system of values to 
bear on the course Pakistan will chose for the new millennium. If we 
choose to engage Pakistan, even cautiously, he might be able guide 
elements within Pakistani society away from the dangerous, 
fundamentalist path so many seem to be taking out of desperation and on 
to a more reasonable and responsible course that will have positive 
effects not only in South Asia but across Central Asia.
    Afghanistan's Taliban, who control perhaps two thirds of the 
country, may have already begun responding to events in neighboring 
Pakistan. In last week's ministerial shuffle in Kabul a few key hard-
line and unyielding mullahs appear to have been replaced by leaders 
more open to compromise. I am convinced that events across the border 
in Pakistan, particularly the curbing of the most dangerously vocal 
fundamentalist elements by the military council, is prompting this 
realignment in Afghanistan.
    While it is by no means clear how the issue of Osama bin Laden will 
play out in the coming days and weeks, I believe that the Taliban want 
to be rid of the bin Laden problem almost as earnestly as the United 
States wants to bring it to resolution. If we prudently reengage the 
Taliban after years of abandonment, and if in the process of talking 
the problem through, we show a minimum of respect for Afghan culture 
and traditions, we may take those first steps toward success in our 
goal of closing down the terrorist training camps, reducing opium poppy 
cultivation, and ultimately bringing about some of the changes we and 
many Afghans seek in their society. If, however, we wave our fingers in 
the faces of the Afghans, and threaten them with more cruise missiles 
there will be no winners.
    Sudan is another case of the costs of U.S. disengagement. Since the 
Bashir regime came to power in 1989, we have chosen not to deal with 
Sudan for a number of reasons, initially ranging from the suspension of 
the democratic process by Bashir's takeover, to the political position 
Sudan took in opposing the Gulf War against Iraq. But over the years 
the list of complaints against Sudan has grown to include all that an 
American focus group considers evil. On international terrorism, 
Sudanese Islamic leader Hassan al Turabi, with his face appearing on 
the cover of the Department of State's publication on terrorism, has 
become the personification of state sponsored terrorism.
    Beyond that, the perception of the Arab north of Sudan against the 
African south in a brutal seventeen year civil war that has probably 
claimed a million lives, provides another reason to despise the 
Khartoum government. Muslim north versus Christian south plays to yet 
another constituency. And the slavery issue, just now being treated 
with some doubt, rounds out a Khartoum regime that can do no right, 
only evil.
    The United States has not had meaningful diplomatic contact with 
Khartoum since 1996, while all of our closest allies have chosen to 
remain engaged. Nevertheless, the Sudanese Government has repeatedly 
stated its willingness to work with the United States and the 
international community on issues of terrorism. At the behest of the 
Saudi Government and with U.S. encouragement, Khartoum expelled Osama 
bin Laden in 1996. It handed over fugitive terrorist Carlos, The 
Jackal, to French security agents a year later, and has again offered 
to cooperate with the United Sates and its allies on terrorist issues. 
Even after the cruise missile attack, the Sudanese signed the Chemical 
Weapons Convention as a sign of their intentions. It is time to 
consider engagement, rather than isolation.
    To be successful in dealing with the changing nature of the 
terrorist threat our government must commit itself to a disciplined and 
demanding approach to the problem and to the formulation of policies 
designed to provide lasting solutions rather than expedient 
demonstrations of power. Our government must take care to concentrate 
the focus of American power on clearly illegal and disruptive acts 
carried out by hostile governments and groups, while avoiding dwelling 
excessively on the aspects of their cultures which we may find alien or 
noxious.
    In short, it is time to ask whether or not the best policy is to 
continue to attempt to isolate these troubled states, and in the 
process possibly insure that they slip into chaos, or whether we should 
take steps that might lift them out of their isolation and in the 
process deny them as safe havens for extremist elements that wish us 
harm. If there is a new world order for the next century it is this. 
The United States as the sole remaining super power can no longer chose 
to isolate and ignore entire nations without dangerous consequences. 
The time honored expectation of the last half century--that the other 
side will bring them under control if we let them go--has expired. 
Things may have worked out that way in the bipolar world of the U.S. 
vs. the USSR. But they don't work that way today.

    Senator Brownback. Yes, without objection. That was an 
excellent thought, and well put and succinctly put, too. It was 
well done.
    Dr. Starr, please proceed.

  STATEMENT OF DR. S. FREDERICK STARR, CHAIRMAN, THE CENTRAL 
ASIA-CAUCASUS INSTITUTE, NITZE SCHOOL OF ADVANCED INTERNATIONAL 
       STUDIES, JOHNS HOPKINS UNIVERSITY, WASHINGTON, DC

    Dr. Starr. Thank you very much, sir. I will be brief.
    The phenomenon of radical political Islam is common 
throughout this large inner Asian region, and extends across 
the former Soviet Union's south--Central Asia--and into 
Xinjiang, in China, and of course in Pakistan, Afghanistan, et 
cetera. It is worth asking, whom are these movements against?
    Perhaps in our self-preoccupation we think we are the focus 
of their passion, or the West in general. And certainly there 
is much truth in that. But the real enemy is generally much 
closer to home. It is those secular states that rule in pious 
Muslim societies. This is an arrangement which obviously 
reflects the Kamalist tradition in Turkey and elsewhere. It is 
an arrangement which is anathema to many of the radical 
Islamicists.
    And the Islamicists' enemy is not just these states that 
maintain secular principle, but particularly the Muslim muftis 
and mullahs and the faithful who support such an arrangement. 
We forget this. The strongest passion is reserved for those 
fellow Muslims who have accepted and find value in the 
arrangement of a secular state, ruling an essentially pious 
Muslim society.
    Now, the question I would like to raise here is, can you 
break out of this cycle of radicalism that is settling in the 
region? I am not going to pause on the interesting and 
precarious experiment in Tajikistan, where a legalized Islamic 
party now exists. Let me just suggest reasons why, in general, 
it may not work.
    First, you, sir, have mentioned the substantial 
international funding for such activities. That has been 
discussed here. Second, I would add and put immense emphasis on 
the importance of the drug trade. The phenomena of radical 
Islam in this part of the world and drug trafficking are 
intimately interlinked today. The drug trafficking from this 
part of the world is now the largest, most developed narcotics 
trade on the planet. And it is obviously a threat to any kind 
of normal society.
    However, looming over all these issues and, it seems to me, 
the one thing that must be the first object of American long-
term attention, is poverty. We know about the poverty of 
Afghanistan. Tajikistan was the poorest of the poor in the 
Soviet Union. Kyrgyzstan, even though it was the first former 
Soviet country to join the WTO, is desperately poor. The 
Ferghana Valley is poor.
    But, above all, we are talking about the poverty that 
exists in this vast mountain zone of inner Asia. These are 
people who have been neglected not simply by Soviet development 
processes but largely by Western development and development 
agencies as well. We are talking about people who, in many 
cases, were uprooted, who were told the only way out is for 
them to go to the big city, to abandon everything that their 
life has focused on up to that point. These people are now in a 
truly desperate plight.
    And I would just like to point out the obvious comparison 
that exists between the widespread radicalism in this region 
and that which exists in Bosnia, in Karabakh, in Chechnya, in 
Dagestan, in Chiapas in Mexico, and in Peru, where the Sundero 
Luminosa was strikingly similar to the general pattern of 
sophisticated urban organizers stirring up passion among a 
desperately poor mountain people. The core problem, then, is 
mountain poverty.
    Is this a hopeless issue? Is this mountain poverty 
something we should just build a fence around and walk away 
from? I do not believe that is the case. On the contrary, it 
seems to me, on the basis of my own observations in the region, 
that poverty in mountain zones can be alleviated.
    I have been particularly impressed by the efforts of the 
Aga Khan Development Network in the northern territories of 
Pakistan. They have also worked in the Badakhshan Autonomous 
Region of Tajikistan, which for the entire Soviet period was 95 
percent dependent upon outside food sources. In a very few 
years, amid civil war, this region is now 85 percent self-
sufficient in food.
    The AKDN is also working in the Garm Valley, which was the 
locus of some of the most extreme radicalism during the Tajik 
civil war. It is obviously too early to declare victory there, 
but the AKDN is working with exactly some of the people who 
were most upset during the fighting.
    What I am suggesting here is that there really exists the 
basis of a long-term strategy. It is not terribly expensive to 
have a huge impact on this mountain poverty. It seems to me 
that in the long run this has to be done. We can delay it. But 
it has to be done. Ultimately we will find ourselves addressing 
mountain poverty in Afghanistan, as well.
    Thank you very much, sir.
    [The prepared statement of Dr. Starr follows:]

              Prepared Statement of Dr. S. Frederick Starr

    Mr. Chairman, I thank you for the opportunity to speak briefly on 
an important and generally misunderstood subject, namely the role of 
Islamic extremism in the region under your committee's purview. I speak 
as one who is devoted to the study of the broad Central Asian region 
that includes Afghanistan, Iran's northeast, northern Pakistan and 
China's Xinjiang province, as well as the five new states that were 
formerly republics of the Soviet Union.
    My message, in brief, is that diverse types of adherents of 
politically radical Islam control Afghanistan and important parts of 
Pakistan but have at least a foothold in every other country of the 
region. Their major enemy is neither America nor the West but what they 
see as the discredited authority of mainstream leaders of Islam's 
several principal branches and the secular states to which those 
leaders lend their support. This is, in short, a kind of civil war 
within Islam. These radical groups are small and unlikely in the long 
run to prevail over the more deeply rooted religious and community 
traditions of the region, let alone over the forces of secular 
modernity. Yet if ignored or mishandled, they have the potential to 
destabilize a broad zone that includes present nuclear states and 
formidable regional powers. This is the more likely because they are 
increasingly linked with the narcotics trade. It is in the interest of 
the United States to see that this does not happen. I will suggest that 
the core problem is not ideology but poverty, especially in mountain 
areas. Whereas direct efforts to repress political extremism and the 
drug trade have largely failed, the problem of rural poverty can be 
successfully addressed today. This should be the focus of U.S. policy 
in the region.
    The genealogy of political radicalism within Islam trace to the 
1920s and 1930s in Sunni Egypt and Pakistan, to the 1960s and 1970s in 
Shiia Iran and southern Iraq, and to a small and more recent current 
within the Wahhabi faith that prevails in Saudi Arabia. All came 
together in the Afghan civil war that erupted in 1979. In other words, 
politically radical Islam was international from the outset.
    Nowhere in the region--even in Afghanistan--is radical Islam a mass 
or ``popular'' movement. It is, instead, a network of small and 
clandestine bands of young activists, most of whom have no other 
profession. Such groups invite repression and thrive on it. Wherever 
possible, they seek to organize armed bands from the local population 
that can take over a small territory and provide stability and modest 
rewards to communities that accept their control. When thwarted in 
this, they often turn to terrorism, as in the many recent murders in 
Dushanbe, the February 16 explosions that rocked Tashkent or the many 
bombings in Xinjiang.
    Viewed from the safe distance of a peaceful western capital, it is 
tempting to suggest that the best way to head off these possibilities 
is to open the electoral systems to Islamic parties. Maybe this is so, 
in spite of the negative experience of Pakistan. The recent decision by 
Tajikistan to allow religious-based political parties bears watching. 
But across the region, a very diverse group of political leaders have 
rejected this route, opting instead for some variant of the Kemalist 
formula of a secular state in an essentially Muslim society, backed by 
repression. In nearly every case they receive strong support from the 
better-educated and ``modern'' segment of their citizenry. The United 
States, let it be noted, has supported this approach in Turkey, Egypt 
and elsewhere.
    One reason leaders as different as Askar Akaev in Kyrgyzstan and 
Islam Karimov in Uzbekistan have opposed bringing adherents of radical 
Islam into the system is that their movements receive such strong 
clandestine financial support from abroad. It is a sad irony that 
significant financial backing for the movement today comes from private 
citizens in three countries that are oriented towards the western 
security system, namely Pakistan, Saudi Arabia, and Turkey. Much 
attention has been focused on the single figure of bin Laden, the Saudi 
millionaire who has purportedly funded some of the more extreme 
terrorist groups. But it is a mistake to think that he is the sole 
financier for these movements. Ample financial aid flows from private 
citizens and groups in all three of these countries, as well as from 
the Gulf states. Their governments have had little or no success in 
stopping this flow of money. In the case of Saudi Arabia one wonders if 
the government is even trying.
    Few news reports fail to characterize adherents of radical Islam as 
``anti-American'' or ``anti-western.'' This is certainly true in some 
general sense. They despise what the French anthropologist called the 
``global monoculture'' and equate this most directly with the modern 
West. But their main enemies are closer to home. Of course, they abhor 
the very idea of a secular state and vow to bring it down. The fact 
that secular leaders across Central Asia profess Muslim piety, support 
the construction of mosques, establish Muslim universities and maintain 
them with tax money, and pay for citizens to make the haj to Mecca, 
only makes them more loathsome in the radicals' eyes.
    Even more objectionable to these people are the main-stream Muslim 
muftis and clerics who support this arrangement. Never mind that devout 
Muslims since the time of the Caliphate have made their peace with non-
clerical governments, provided they respect the Faith. Westerners are 
quick to blame the new secular governments in Central Asia for their 
supposed ``paranoia'' towards radical Islam. What they fail to note is 
the even stronger defensiveness and fear with which mainstream Muslim 
leaders and most of their flock regard the insurgents. As the leader of 
one of the main Sufi movements puts it, ``We are under assault by 
people who reject our Saints and would tear down their shrines, all in 
the name of Islam.''
    Twenty years after the Soviet invasion of Afghanistan, that country 
remains at the center of the human circuitry that constitutes radical 
Islam in Central Asia. It is revealing that when Kyrgyz negotiators 
sought to open contact with leaders responsible for the recent armed 
incursion into their country from Tajikistan, they went directly to 
Afghanistan. It is undeniable that rural-based rebel bands of Tajiks 
who were not included in that country's peace process remain a threat, 
as do Uzbek activists who were excluded from their country's political 
life in the first years after independence. But the main organizational 
focus, staging point, and safe haven for all these groups remains 
Afghanistan. There will be no constructive movement on the larger issue 
of radical Islam in Central Asia until the international community 
solves the Rubic's Cube of that long-suffering land.
    At the heart of the Afghan problem, and hence of the problem of 
political Islam across the region, is the narcotics trade. Sustained by 
demand from the West, Afghanistan is now the world's largest drug 
producer and all the surrounding countries have been drawn into its 
vortex. It is well and good for outsiders to preach about the 
incompatibility of narcotics with Islam, or, for that matter, with 
Christianity in Colombia. But profits from the production and transport 
of drugs are so enormous that few, if any, human communities can resist 
it, especially those that are desperately poor. Today, radical Islam in 
Central Asia is inextricably linked with traffic in narcotics.
    Is there any way to address this problem? Many think the best 
approach is to ``build a fence around Afghanistan.'' But as Tajikistan, 
Kyrgyzstan, Uzbekistan, Turkmenistan, Kazakstan, Iran, and Pakistan are 
all drawn deeper into the narcotics industry, and as this industry's 
capacity to fund radical movements increases, this fence will have to 
grow ever longer and higher.
    Barring a reduction in demand, it is probably impossible to address 
the problem this way. But that does not mean that no solution exists.
    The single common element linking all the areas spawning radical 
Islamic movements in Central Asia today is poverty. Poverty is the 
fertile soil in which radical groups have germinated in the Ferghana 
valley of Uzbekistan, Tajikistan and Kyrgyzstan. More to the point, it 
provides the soil for extremist movements throughout the vast mountain 
zone of Central Asia, just as it has in Chechnya, Bosnia, Chiapas in 
Mexico, and the Andean highlands of Peru.
    I submit that the great engine driving both radical Islam and the 
drug trade in Central Asia is poverty, and that the most desperate and 
dangerous zone of poverty is that vast mountain region embracing the 
western Himalayas, Hindukush, Pamirs, Tien-Shan, and Kopet Dag ranges. 
Like the extremist movements and drug trade it has nourished, this 
region is international in scope, embracing not only Afghanistan but 
large parts of Pakistan, Tajikistan and Kyrgyzstan, as well as 
important areas of Kazakstan, Uzbekistan, Iran, Xinjiang, and 
Turkmenistan. Until the problem of poverty in these mountain zones is 
addressed, there will be no solution to any of the region's other 
urgent problems.
    Unfortunately, the very notions of development that informs the 
work of governments in the region and of many international agencies 
active there only exacerbate the problem. Under the USSR, development 
meant movement from the mountains to the lowlands, in other words, the 
destruction of traditional mountain communities. The new states have 
yet to break with this tradition. All too often, international agencies 
have focused their attention on macro-economic issues, neglecting rural 
areas where most people live and especially the mountain populations.
    But there exists at least one successful model for rural 
development in the mountain zones of Central Asia, namely, the work of 
the Aga Khan Development Network (AKDN). Beginning in the Northern 
Areas of Pakistan and now extending into Tajikistan, the AKDN has 
developed a model of sustainable development in mountain zones that 
enables mountain peoples to be self sufficient and to develop their own 
schools and micro-credit institutions. Suffice it to say that the bleak 
Badakhshan Autonomous District of Tajikistan, which imported 95% of its 
food throughout the Soviet period, is now able to provide 85% of the 
food it needs. In short, sustainable development is a real possibility, 
even in the mountain areas that have generated political extremism and 
the narcotics trade.
    Nowhere is this truth more clearly manifested than in the notorious 
Garm region of Tajikistan, home to many of the most radical Islamic 
groups during the Tajik civil war. Today the AKDN is working 
productively in the Garm valley, often with the same people who a few 
years ago were fighting with the Islamic militants. It is far too early 
to claim success there, but it is not too early to conclude that 
success is indeed possible, and with a surprisingly modest expenditure 
of funds. At some point in the future, one might realistically hope 
that these AKDN projects in Pakistan, Badakhshan, and Garm might 
provide a useable model for similar projects elsewhere in this 
politically volatile region, and, yes, even in Afghanistan.
    It is not surprising that the new governments of Central Asia 
should respond to the rise of Islamic militancy with blind fear and 
measures of repression that often prove counterproductive. But their 
shortsightedness is no greater than that of the international 
community, which has largely failed to recognize that the core problem 
is rural poverty, especially in mountain areas, and has yet to put its 
shoulder firmly behind workable programs for its alleviation. 
Fortunately, such programs exist, and, if replicated, can realistically 
be expected to bear fruit. In the long run, this is the only solution 
to the problem of Islamic extremism and drug trafficking.

    Senator Brownback. Thank you, Dr. Starr.
    And our final witness, Mr. Krepon, I hope I am saying that 
right, president of the Henry L. Stimson Center. Thank you for 
joining us.

   STATEMENT OF MICHAEL KREPON, PRESIDENT, HENRY L. STIMSON 
                     CENTER, WASHINGTON, DC

    Mr. Krepon. Thank you, Mr. Chairman.
    As subcommittee chairman of Near Eastern and South Asian 
Affairs, you cover some of the most important territory and 
some of the most problematic territory on the face of the 
globe, as you have discovered. These countries have long 
histories, but real short time lines as independent states. 
Many of them came to life as independent states when Great 
Britain, an exhausted imperial power, withdrew after World War 
II. A colonial hand penned borders before leaving. And it did 
not work out, and people immediately took up the gun. And 
violence has been a part of both regions ever since.
    The difference between South Asia and the Middle East, or 
at least one difference, is that in the Middle East there is a 
peace process. In South Asia there is no peace process. Whether 
there is a peace process or not, there is going to be political 
violence, and violence directed against noncombatants. If there 
is a peace process that seems to be making headway, 
irreconcilables are going to take to the gun, as leaders in the 
Middle East have discovered.
    But at least if there is a peace process, there is the hope 
to an end to violence. In South Asia, there is no peace 
process. There is continued violence. And without a peace 
process around the central issue of Kashmir, the prospect is 
just unending sorrow.
    Now, I want to talk to you a little bit about Kashmir, 
because I know you are going to be spending a fair amount of 
time worrying about that problem and about India and Pakistan. 
India and Pakistan each have a one-track approach to the 
Kashmir issue. The Indian one-track strategy is 
counterinsurgency. And they are pretty good at it.
    The Pakistani strategy revolves around support for 
insurgency. The official Pakistani position is that we only 
give moral, diplomatic and political support. But as you have 
seen from the testimony of my colleagues, there is also some 
military support, as well.
    Pakistan is caught up, regrettably, in the Kalishnikov 
culture. It is caught up in it vis-a-vis its neighbor, 
Afghanistan, and it is caught up with the gun culture because 
of its connectivity with Kashmir. And I believe this is causing 
grave, grave harm to Pakistan.
    My sense is that both India and Pakistan need to reevaluate 
their one-track strategies toward Kashmir. A counterinsurgency-
only strategy is not going to work. It is not going to work. It 
puts a very, very heavy burden on Indian security forces. And 
it puts an even heavier burden on Kashmiris. But a political 
strategy to complement that, a serious political engagement for 
India, with Pakistan and with disaffected Kashmiris, is not 
happening.
    Pakistan also needs to reconsider its one-track strategy of 
support for insurgency. It is damaging the country. The new 
chief executive, General Musharraf, has listed a series of very 
ambitious and necessary reforms that are needed domestically. I 
do not know that he can do it unless he reevaluates his 
country's Kashmir policy.
    I have gone over the time limit. I know you have other 
things to do. But maybe we can continue this conversation 
later.
    [The prepared statement of Mr. Krepon follows:]

                  Prepared Statement of Michael Krepon

    Mr. Chairman, thank you for the opportunity to testify today. Other 
witnesses have discussed terrorism in the Middle East. With your 
indulgence, I will limit my remarks to the issue of terrorism as it 
relates to India, Pakistan, and the Kashmir dispute. In South Asia, 
terrible acts of violence afflict Sri Lanka and Afghanistan, as well, 
but others could help you understand these tragedies far better than I.
    The independent states of India and Pakistan, like the State of 
Israel, emerged from the contraction of an exhausted imperial power 
after World War II. Great Britain left hurriedly from both outposts, 
sparking conllict upon its withdrawal from the subcontinent and 
Palestine. These conflicts remain unresolved to this day, although 
Israel has made far more progress in this regard than India and 
Pakistan.
    Unresolved conflicts are the breeding grounds for acts of violence, 
including those directed expressly against non-combatants. These acts 
of violence are designed to affect political outcomes. The current 
Israeli government understands that an effective strategy against acts 
of violence requires not only well-planned and executed 
counterinsurgency operations, but also purposeful diplomacy to resolve 
the underlying bases for continued conflict.
    Violent acts will be generated by a peace process and by the 
absence of a peace process. If peace making appears to be making head 
way, irreconcilables will seek to stop positive momentum. Serious 
efforts at peace making, however, offer the promise of an end to 
violence. In contrast, the absence of a peace process invites never-
ending sorrow.
    In South Asia--in stark contrast to the Middle Fast--the political 
``track'' to conflict resolution has been almost entirely absent. 
Substantive dialogue between India and Pakistan or between Indian 
officials and disaffected Kashmiris has rarely occurred. In the absence 
of substantive dialogue between aggrieved parties, counter-insurgency 
operations can have only limited effect. Put another way, in the Middle 
East or in South Asia, there is no light at the end of a tunnel defined 
solely by counter-insurgency operations. Israel has understood that 
counter-insurgency operations must be supplemented by a strategy of 
political reconciliation and conflict resolution.
    In India, this recognition is not broadly accepted and has not yet 
translated into government policy. As a result, the Government of 
India's relies heavily on a one-track policy based on counter-
insurgency operations. New Delhi's Kashmir policy therefore places a 
heavy burden on Indian security forces and a heavier burden on 
Kashmiris. A reconsideration of India's one track Kashmir policy might 
therefore be wise. It would also be very difficult to do, given India's 
vibrant domestic politics as well as Pakistan's well-entrenched policy 
toward Kashmir.
    Successive governments in Pakistan have publically maintained that 
their support for insurgency is limited to moral, political and 
diplomatic initiatives. Few Pakistanis--and fewer outsiders--believe 
these assertions. Pakistan's military and political leaders have been 
deeply involved in supporting militancy in Kashmir and in Afghanistan. 
By supporting the ``Kalashnikov culture'' in Afghanistan and across the 
Line of Control dividing Kashmir, Pakistan is also paying a very heavy 
price. The gun culture and sectarian violence within Pakistan are 
growing. The rule of law within the country is endangered. Critical 
social indicators are trending downward. Meanwhile, militant groups 
involved in the Kashmir and Afghan struggles educate and train new 
cadres within the country and hold press conferences in Lahore and 
Islamabad.
    Pakistan's Kashmir policy might also benefit from a fundamental re-
evaluation. Who is benefitting from Pakistan's Kashmir policy? How has 
a decade of support for the struggle in Kashmir helped Kashmiris or 
helped Pakistanis? Is Pakistan better off now, after a decade of 
support for insurgency, than before?
    A new government in Pakistan under General Pervez Musharraf has 
been established to deal with that country's manifold domestic 
problems. General Musharraf has properly identified the urgent tasks 
facing Pakistan: rebuilding morale;, restoring national cohesion; 
reviving the economy; ensuring law and order; depoliticizing state 
institutions; devolving power to the grass-roots level; and ensuring 
accountability for misdeeds. Can these critical tasks be tackled 
effectively without a fundamental re-assessment of Pakistan's Kashmir 
policy? I do not believe so. Pakistan's well being must be won in 
Pakistan, not in Afghanistan, and not in Kashmir.
    Pakistan, like India, presently has a one track strategy for 
Kashmir. While India's strategy revolves around counter-insurgency, 
Pakistan's strategy revolves around support for insurgency. Diplomatic 
efforts by both countries are designed to place the other in a negative 
light, not to resolve basic issues. Of course, these one-track 
strategies are mutually reinforcing. They combine to create misery for 
Kashmiris and for villagers on both sides of the Line of Control--the 
dividing line over which India and Pakistan fought this summer.
    One-track strategies succeed only in negative ways. They succeed in 
allowing sitting governments to avoid hard political choices, and they 
succeed in imposing pain and suffering. The impact of these 
complementary, one-track strategies differ, however: India appears able 
to absorb the challenges of counter-insurgency. It is less clear 
whether Pakistan can continue to absorb the domestic challenges of 
supporting insurgency.
    Does this mean that Pakistan should give up its claims over 
Kashmir? No. It means that India and Pakistan should settle their 
differences in an honorable way, and in a way that involves centrally 
those who have suffered so much as a result of this dispute. South Asia 
needs a peace process--one that might take different shape than the 
Middle East peace process, but one with similar seriousness of purpose.
    In the fall of 1998, India and Pakistan finally agreed to a 
structure for substantive bilateral discussions on Kashmir, peace and 
security, and on a variety of other topics. Since then, both countries 
have been on a roller coaster ride, including nuclear weapon tests, an 
extraordinary summit meeting in Lahore, and the undeclared war this 
summer along the northern reaches of the Line of Control.
    After this undeclared war, trust is in short supply in South Asia. 
The newly elected Indian government headed by Prime Minister A.B. 
Vajpayee has said that it is willing to resume substantive dialogue 
with Pakistan, but that Pakistan's support for militancy across the 
Line of Control must subside. This is a reasonable position. The new 
Chief Executive of Pakistan, General Musharraf, has stated his 
willingness to resume substantive dialogue with India.
    Bilateral dialogue is likely to resume. Whether these talks are 
serious or pro forma will depend, in large part, on whether Pakistan 
and India re-evaluate their separate but interlocking Kashmir policies. 
If these talks remain rooted in mutually reinforcing one-track 
strategies, we will continue to witness a dialogue of the deaf. 
Meanwhile, nuclear capabilties are growing, along with political 
alienation in Kashmir and centrifugal forces within Pakistan.

    Senator Brownback. I hope so. And I think we are going to 
have plenty of chance to, because this is a big topic.
    The vote is on, but we have a few minutes. I would like to 
ask a couple of questions.
    Mr. Bearden, why do the Saudis fund some of these 
operations?
    Mr. Bearden. Funding some of the operations?
    Senator Brownback. Mr. Ijaz talked about some of the 
schools that are training some people.
    Mr. Bearden. The Saudis have been involved, as has bin 
Laden, going back to the early eighties, during the struggle 
against the Soviet occupation, collections, large collections 
of Gulf fundraisers. And that is what bin Laden was, was a 
fundraiser. He was not a warrior inside the Afghan war. It 
brought in large amounts and established a funding mechanism 
that would bring in, after the jihad turned in favor of the 
Mujahedin in 1986-87, of maybe up to $25 million a month coming 
in through Gulf sources. I do not think it has ever stopped. I 
think that those mechanisms have been in place.
    I think they have been in place for the Wahabbis, who have 
brought their brand of Islam into Pakistan and who have done 
everything from those funding mechanisms to building one of the 
largest mosques in the universe in Islamabad. This goes on. And 
it creates competition from the Iranians, who have been 
involved in some of the madrassa schools that Mr. Ijaz 
mentioned himself.
    I do not think that you can point to a reason why. I think 
it has been going on so long and it is so much a part of the 
Saudi interest in being competitive for a plumb like 130 
million to 140 million Pakistanis. I do not even know how many 
there are. It is that kind of an issue. And I do not think, 
without discussion, one could even think about stopping it.
    Senator Brownback. Do you have a thought on that, Mr. Ijaz?
    Mr. Ijaz. May I just add one thing to that? And that is the 
following. That I would characterize it a little bit 
differently. I think the Saudis and the Iranians, who are the 
major forces of Sunni and Shia Islam, they house the holy sites 
in each country of each of the sects of Islam, they are 
interested in fighting this ideological struggle that has gone 
right back to the time of the Prophet Mohammed, peace be upon 
Him.
    And the problem is that they are not willing to fight it on 
their soil. They want to fight it somewhere else. It is like 
keep it out of my back yard, but I still want to have the 
ideological struggle in my name. And so the funding that goes 
on is to try and win, as Milton Bearden correctly said, as many 
new converts to the process as you can. And because Pakistan is 
a country that has so many different kinds of problems, 
population control being one of them, it was an ideal and very 
fertile ground on which they could fight that struggle.
    And so what they did is they went in and they said, all 
right, let us build a school and put 35-40 students in it right 
away. People will be brought from families that have extra 
children that they do not want to have. And what they were 
doing in their own minds, the fathers and the mothers that gave 
those sons away, were two things.
    One, they are giving them to a life of Islam, which is a 
good thing in our religious beliefs. And the second was that 
some of them thought, well, maybe they will work in the army 
one day and they will bring glory to our family in that way. 
And, most importantly, it reduced the financial burden on these 
families.
    Now, what would happen if you took exactly the same amount 
of money that he is talking about and the amount of money that 
you talked about last week when you went on this trip to New 
York to meet with the Iraqis, and we just form an education 
program and fund it year after year? You start building a base 
up. We have already lost one generation. The question is 
whether we are going to lose multiple generations thereafter. 
And that is really what I think needs to be looked at.
    Senator Brownback. Dr. Starr, did you have a comment on 
this?
    Dr. Starr. As a professional educator, I can hardly be 
against what has just been recommended. And I heartily agree. 
On the other hand, there are philosophical and religious 
differences that we can never resolve, of course. We also talk 
about problems of foreign support for radical Islamicists. But 
this would have the potency and destructive force that it does 
were it not for the fact that this whole region is so 
desperately poor, particularly the mountain areas.
    We are talking about people who have $5 a month. We are 
talking about people who have no way out. None of us is so 
strong that we would withstand the temptation to drug 
trafficking and violence. Until we have a long-term strategy 
that is based on giving these people the capacity to live 
normal lives in situ, in the place where they live and where 
their forefathers have lived, until that happens, we will not 
make any real progress.
    We cannot deal with the drug issue directly unless we are 
prepared to kill the demand. And we cannot deal with any of 
these issues in the long run on a fundamental basis unless we 
address the issue of poverty. And we can do this. That is the 
good news in this story. There is no party to this conflict 
that would not welcome American initiatives, provided that 
there are a little more intelligent and well framed than many 
of our initiatives in the past.
    Senator Brownback. Well, I think we will be talking about 
this a great deal more. This has been an excellent panel and 
very experienced and thoughtful people, and I appreciate that a 
great deal. As I stated, I hope to have several hearings on 
this, because I think this is critically important that we 
reengage, as virtually all of you have said. And you have put 
forward some good, different ideas.
    I invite you to put more flesh on the bones of the ideas 
that you have. And if they are things that we can work together 
on in developing this overall strategy, I would love to hear 
them, because this is an important problem facing us.
    I regret I am going to have to excuse myself now and that 
we are going to have to terminate the hearing. We may have some 
questions. If you would like to amend your statements to the 
record, it will remain open for a period of 3 days. I believe 
that is what is required.
    Thank you again very much for joining us.
    The hearing is adjourned.
    [Whereupon, at 4:30 p.m., the hearing was adjourned.]

                                  <all>

</pre></body></html>
